<html>
<title> - LONG LINES, SHORT PATIENCE: LOCAL PERSPECTIVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      LONG LINES, SHORT PATIENCE: 
                           LOCAL PERSPECTIVES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2016

                               __________

                           Serial No. 114-74

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-246 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, a Representative in Congress From 
  the State of New Jersey:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Ms. Christina R. Callahan, Executive Director, Syracuse Hancock 
  International Airport, Syracuse, New York
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Ms. Bonnie A. Allin, President and CEO, Tucson Airport Authority, 
  Tucson, Arizona:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Ms. Lydia Beairsto, Managing Deputy Commissioner for Security, 
  Department of Aviation, City of Chicago, Illinois..............    17
Ms. Kerry Philipovitch, Senior Vice President, Customer 
  Experience, American Airlines:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. J. David Cox, Sr., National President, American Federation of 
  Government Employees:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

 
             LONG LINES, SHORT PATIENCE: LOCAL PERSPECTIVES

                              ----------                              


                         Thursday, May 26, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Transportation Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:08 a.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, Carter, and Payne.
    Also present: Representatives McSally and Jackson Lee.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation Security, will come to order.
    A bit of housekeeping before we proceed. I ask unanimous 
consent that the gentlewoman from Arizona, Ms. McSally, be 
allowed to sit on the dais and participate in this hearing.
    Without objection, so ordered.
    The subcommittee is meeting today to better understand the 
root causes of increased passenger wait times and gain local 
perspectives on this important issue.
    I now recognize myself for an opening statement.
    As the summer holiday season approaches, we are in the 
midst of a crisis at our airports. American families are 
planning to enjoy their time off traveling to points near and 
far, business men and women are doing the same that they do all 
year round, and the added crush of the travel season, leisure 
season, is causing particular problems.
    As they begin their journeys, they will arrive at airports 
around the country only to be confronted with longer and longer 
lines at many airports at TSA checkpoints, causing some to 
return home after missing their flights and stranding others to 
take up temporary residence at the airport on a cot, like we 
saw in Chicago a few weeks ago.
    Unfortunately, this is not an isolated incident, and this 
committee continues to receive reports from around the country 
describing delays at TSA checkpoints in excess of 2 hours. On 
Good Friday, March 25, 600 passengers missed their flights at 
the Charlotte Douglas International Airport due to an apparent 
lack of TSA manpower and checkpoint inefficiencies. In fact, 
that airport was nearly forced to effect a ground stoppage, a 
literal standstill of air traffic, due to delays at the 
checkpoint.
    This is wholly unacceptable. I, along with the American 
taxpayer, expect the security at America's airports to be 
streamlined, effective, and efficient.
    This committee has worked tirelessly with TSA to ensure 
that the manpower and technology they need to operate 
checkpoints at optimal levels is there.
    While TSA realized there would be an issue and communicated 
to the American public that increased wait times should be 
expected at our Nation's airports as we enter the high travel 
seasons, they did not have a clear picture of the resources 
they would need to tackle this problem and clearly were not 
prepared for it.
    The TSA fiscal year 2017 budget request did not account for 
any of the increases in overtime or staffing that they are now 
requesting to meet their basic screening function. It wasn't 
until widespread media reports of passengers on cots, which is 
completely unacceptable, and excessive wait times that TSA made 
the decision to request to reallocate assets to help combat the 
issue.
    I, my colleagues on this committee, and Ms. McSally are 
growing increasingly frustrated that TSA needs constant 
prodding to effect positive changes at the agency.
    This committee has passed several pieces of bipartisan 
legislation that would go a long way towards improving the 
overall security of airports, as well as improving checkpoint 
optimization. But the Senate refused to expedite passage of 
these important bills, standing on principle or some esoteric 
theory about how the agency should be run. In short, they are 
trying to polish the brass while the fire bell is ringing.
    For example, my TSA PreCheck bill would require TSA to 
expand and aggressively market the program, thereby increasing 
the number of trusted travelers into the system, diverting them 
into PreCheck checkpoints, and alleviating the stress on the 
general public checkpoints. However, due to typical Washington 
antics, this bill, amongst others, remains stalled.
    When I came to Congress I made a commitment to my 
constituents to tackle problems head on and just get things 
done. Last week, the subcommittee convened representatives from 
airports and airlines from across this country to discuss this 
wait time crisis and hear directly from them about what they 
think needs to be done to help. It was a very productive 
meeting, and it gave me faith that the process in Congress can 
and does work sometimes.
    The message was consistent: TSA needs to collaborate with 
individual airlines and airport authorities to coordinate 
sufficient staffing levels on a local basis.
    I have heard your message, and later today I will introduce 
the Checkpoint Optimization and Efficiency Act of 2016, which 
will require TSA to maximize all of their available resources 
and give airports and airlines a seat at the table to ensure 
those resources are being utilized and allocated in the most 
effective and efficient manner.
    Make no mistake, security is first and foremost. Those that 
wish to do us harm continue to plot against the aviation 
community, and we must be ready to confront them at every turn. 
But TSA has to find a way to maintain security while fulfilling 
its duty to keep passengers safely moving through the system. 
They have the capability to do it. TSA has to be forward-
leaning and creative to address obstacles as they present 
themselves, just like all of us do in our daily jobs.
    I would like to thank our witnesses for taking time out of 
their busy schedules and making multiple trips on short notice 
to Washington to aid us in solving this problem. I am lucky, 
honored, and fortunate to have the Syracuse International 
Airport, which I fly in and out of each week, as the well-oiled 
machine that it is, compared to the horror stories we heard at 
last week's roundtable discussion on checkpoint efficiency. I 
have Christina Callahan, one of the witnesses here, to thank 
for that.
    I would like to thank all of you for being here today, and 
I look forward to hearing your perspective on the best and most 
effective way forward.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                              May 26, 2016
    As the summer holiday season approaches, we are in the midst of a 
crisis at our airports. American families are planning to enjoy their 
time off traveling to points near and far. As they begin their 
journeys, they will arrive at airports around the country only to be 
confronted with longer and longer lines at TSA security checkpoints, 
causing some to return home after missing their flights and stranding 
others to take up temporary residence at the airport, on a cot, like we 
saw in Chicago a few weeks ago.
    Unfortunately, this is not an isolated incident and this committee 
continues to receive reports from around the country describing delays 
at TSA checkpoints in excess of 2 hours. On Good Friday, March 25, 600 
passengers missed their flights, at the Charlotte-Douglas International 
Airport, due to an apparent lack of TSA manpower and checkpoint 
inefficiencies. In fact, the airport was nearly forced to affect a 
ground stoppage--a literal standstill of air traffic--due to delays at 
the checkpoint. This is wholly unacceptable and I, along with the 
American taxpayer, expect the security at America's airports to be 
streamlined, effective, and efficient.
    This committee has worked tirelessly with TSA to ensure they have 
the manpower and technology they need to operate checkpoints at optimal 
levels. While TSA realized there would be an issue, and communicated to 
the American public that increased wait times should be expected at our 
Nation's airports as we enter the high travel seasons, they did not 
have a clear picture of the resources they would need to tackle this 
problem. The TSA fiscal year 2017 budget request did not account for 
any of the increases in overtime or staffing that they are now 
requesting to meet their basic screening function. It wasn't until 
wide-spread media reports of passengers on cots and excessive wait 
times, that TSA made the decision to request to reallocate assets to 
help combat the issue. I am growing increasingly frustrated that TSA 
needs constant prodding to effect positive changes at the agency.
    This committee has passed several pieces of bipartisan legislation 
that would go a long way to improve the overall security of airports as 
well as improving checkpoint optimization, but the Senate refuses to 
expedite passage of these important bills. For example, my TSA PreCheck 
bill would require TSA to expand and aggressively market the program, 
thereby, increasing the number of trusted travelers into the system, 
diverting them into the PreCheck checkpoints and alleviating the stress 
on the general public checkpoints. However, due to typical Washington 
antics, this bill amongst others remains stalled.
    When I came to Congress I made a commitment to my constituents to 
tackle problems head on and get things done. Last week, this 
subcommittee convened representatives from airports and airlines from 
across this country to discuss this wait time crisis and hear directly 
from them what they think needs to be done to help. The message was 
consistent; TSA needs to collaborate with individual airlines and 
airport authorities to coordinate sufficient staffing levels on a local 
basis. I have heard your message, and later today, I will introduce the 
``Checkpoint Optimization and Efficiency Act of 2016,'' which will 
require TSA to maximize all of their available resources and give 
airports and airlines a seat at the table, to ensure those resources 
are being utilized and allocated in the most effective and efficient 
manner.
    Make no mistake, security is first and foremost. Those that wish to 
do us harm continue to plot against the aviation community and we must 
be ready to confront them at every turn. But TSA has to find a way to 
maintain security while fulfilling its duty to keep passengers safely 
moving through the system. TSA has to be forward-leaning and creative 
to address obstacles as they present themselves.
    I would like to thank our witnesses for taking time out of their 
busy schedules and making multiple trips, on short notice, to 
Washington to aid us in solving this problem. I am lucky, the Syracuse 
Hancock International Airport, which I fly in and out of each week, is 
a well-oiled machine compared to the horror stories we heard at last 
week's roundtable discussion on checkpoint efficiency, and I have 
Christina Callahan to thank for that.
    I would like to thank all of you for being here today and I look 
forward to hearing your perspective on the best and most effective way 
forward.

    Mr. Katko. With that, I now recognize the Ranking Member of 
the subcommittee, the gentleman from New Jersey, Mr. Payne, for 
his opening statement. I like those glasses.
    Mr. Payne. Thank you, Mr. Chairman. I wore them just for 
you.
    Mr. Katko. Go orange.
    Mr. Payne. Yeah, right.
    I would also like to thank you for holding this hearing.
    It is good that we are having this hearing immediately 
following the full committee hearing with Administrator 
Neffenger yesterday.
    Recently, wait times have been a major cause of concern 
within our Nation's airports. Last week, for example, due to 
extreme wait times, the Transportation Security Administration 
reallocated resources to Chicago Midway International Airport 
and Newark Liberty Airport to decrease the length of screening 
lines.
    While I am pleased that TSOs are being given the 
opportunity to be converted to full-time and the administration 
has taken steps to address the problem in the interim, we need 
to find a viable long-term solution to this problem. 
Reallocating, or taking one airport's resources and giving it 
to another, will only fix the problem temporarily.
    For the summer travel period, TSA predicted that nearly 740 
million individuals will use commercial aviation travel, which 
happens to be the most air travelers this country has ever 
seen. In contrast, TSOs, who are responsible for screening 
passengers and baggage, are at some of the lowest numbers we 
have seen in years.
    This is due in large part to limited resources. Under 
former Administrator Pistole, the agency pivoted to risk-based 
security, a frame of mind that we focus our resources on 
individuals who we know less about, and rightfully so.
    However, this methodology also came with programs that were 
not sustainable due to security risk, such as Managed Inclusion 
2, which has since ceased. Although they are still using a 
risk-based approach, it does not take away from the fact that 
the amount of officers, when compared to the number of people 
traveling, is insufficient.
    Last week, the Subcommittee on Transportation Security held 
a roundtable discussion with the airports, and many important 
things were discussed. There were general agreements that BDOs 
could be used in other roles throughout the screener model. 
Yesterday, we learned TSA agrees and supports the Federal 
security directors having the flexibility to use BDOs in 
different ways.
    We also heard concern on whether or not Federal security 
directors had enough flexibility to operate as necessary 
checkpoints with staffing. The administrator testified 
yesterday that he believed that they always had such 
flexibility and that he worked to ensure that they knew that 
they had this flexibility.
    Now we get to hear more perspectives from stakeholders who 
are intimately involved with the commercial aviation and 
airlines and airports themselves. Today I look forward to 
hearing what your experiences throughout this issue have been, 
as well as how you view the steps that are being taken.
    I would also like to thank President Cox from AFGE for 
being here to serve as the voice of the workforce. TSOs 
represent the front line in our efforts to secure the 
commercial aviation sector. They do an outstanding job 
screening passengers and their belongings, and often unfairly 
receive the majority of the blame for this issue. Their 
perspective is absolutely vital in this conversation.
    With that, Mr. Chairman, I want to thank you, and I yield 
back the balance of my time.
    [The statement of Hon. Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                              May 26, 2016
    Recently, wait times have been a major cause for concern within our 
Nation's airports. Last week for example, due to extreme wait times, 
the Transportation Security Administration reallocated resources to 
Chicago-Midway International Airport and Newark Liberty Airport--to 
decrease the length of screening lines.
    While I am pleased that TSOs are being given the opportunity to be 
converted to full-time, and the administration has taken steps to 
address the problem in the interim, we need to find viable long-term 
solutions to this problem.
    Reallocating, or taking one airport's resources and giving them to 
another, will only fix the problem temporarily. For the summer travel 
period, TSA has predicted that nearly 740 million individuals will use 
commercial aviation to travel, which happens to be the most air 
travelers this country has ever seen.
    In contrast, TSOs, who are responsible for screening passengers and 
baggage, are at some of the lowest numbers we've seen in years. This is 
due, in large part, to limited resources.
    Under former-Administrator Pistole, the agency pivoted to risk-
based security, a frame of mind that we focus our resources on 
individuals who we know less about--and rightfully so.
    However, this methodology also came with programs that were not 
sustainable due to security risks, such as Managed Inclusion 2, which 
has sense ceased. Although they are still using a risk-based approach, 
it does not take away from the fact that the amount of travelers, when 
compared to the number of people traveling, is insufficient.
    Last week the Subcommittee on Transportation Security held a 
roundtable discussion with airports and many important things were 
discussed. There was general agreement that BDOs could be used in other 
roles throughout the screener model. Yesterday, we learned that TSA 
agrees, and supports Federal Security Directors having the flexibility 
to use BDOs in different ways.
    We also heard concern on whether or not Federal Security Directors 
had enough flexibility to operate as necessary with checkpoint 
staffing. The administrator testified yesterday that he believed that 
they always had such flexibility, and that he worked to ensure that 
they knew that they had this flexibility.
    Now, we get to hear more perspectives from stakeholders who are 
intimately involved with commercial aviation and airlines and the 
airports themselves. Today, I look forward to hearing what your 
experiences throughout this issue have been, as well as how you view 
the steps that are being taken by the administration, and in some 
instances, yourselves, to address wait times.
    I would also like to thank President Cox from AFGE for being here 
to serve as the voice of the workforce. TSOs represent the front line 
in our efforts to secure the commercial aviation sector. They do an 
outstanding job screening passengers and their belongings, and often 
unfairly receive the majority of the blame for this issue. Their 
perspective is absolutely vital in this conversation.

    Mr. Katko. Thank you, Mr. Payne.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have a very distinguished panel here to 
testify before us today on this very important topic. Christina 
Callahan serves as executive director for Syracuse Hancock 
International Airport in Syracuse, New York. Ms. Bonnie Allin 
is president and CEO of the Tucson Airport in Tucson, Arizona. 
Ms. Lydia Beairsto serves as managing deputy commissioner for 
security in the department of aviation for the city of Chicago. 
Ms. Kerry Philipovitch, senior vice president for customer 
service at American Airlines. Mr. David Cox, National president 
of the American Federation of Government Employees.
    Thank you all for being here today.
    I now recognize Ms. Christina Callahan for an opening 
statement.

    STATEMENT OF CHRISTINA R. CALLAHAN, EXECUTIVE DIRECTOR, 
   SYRACUSE HANCOCK INTERNATIONAL AIRPORT, SYRACUSE, NEW YORK

    Ms. Callahan. Thank you. Good morning. Chairman Katko and 
Ranking Member Payne, and to the other Members of the 
Transportation Security Committee, thank you. Thank you for 
inviting us to today's hearing on an issue that requires both 
immediate attention and long-term sustainable solutions: How to 
handle growing lines at TSA checkpoints at airports across the 
country while maintaining the high standards for passenger and 
baggage screening we need in order to keep the flying public 
safe.
    Syracuse International Airport is a small commercial hub 
serving 2 million passengers annually, providing cargo and 
general aviation services to central New York. It employs 
hundreds of people and is a vital component of our economy. As 
an origination and destination airport, we serve 17 direct 
markets and we are the departure point for 1 million outbound 
passengers every year.
    While Syracuse has not experienced the recent increased 
long security checkpoint times, we are part of a National 
transportation system that links our passengers to the airports 
represented here today, and working towards a solution as we 
enter one of the busiest travel seasons in the year is as 
important to Syracuse as it is to my fellow airports. What I 
hope to offer today, in addition to echoing my fellow airports' 
concerns, are examples of the steps we have taken to address 
our issues at home.
    Ensuring the security and safety of the flying public, 
employees, and other airport users is the top priority for 
airports. Above all else, we are entrusted by the traveling 
public to provide safe and secure air transportation. 
Checkpoint wait times that exceed an hour or longer at some of 
our Nation's busiest airports have negative impacts on all 
elements of the air transportation system. Passengers are 
frustrated, taking their frustrations out on TSA, airport, and 
airline employees. The anxiety caused by concern over missing a 
flight, or even worse, missing that flight, creates an 
environment that is already challenged and difficult.
    Several factors have been identified that have contributed 
to the checkpoint wait time issues. They include no increase in 
the number of Transportation Security Officers between fiscal 
years 2015 and 2016, the high rate of TSO attrition followed by 
the lengthy process to hire new TSOs, record growth in 
passenger traffic and lagging numbers in PreCheck enrollment. 
Combined, they have created a perfect storm that has led to 
recent events.
    Working together, the airports, TSA, the airlines, and 
industry advocates have identified short- and long-term 
recommendations that focus on key areas, including the need for 
sufficient TSA staffing, increased PreCheck enrollment and 
participation, and the continued need to modernize airport 
infrastructure. We do not, however, support the imposition of 
any new passenger fees. Rather, we believe that the portion of 
the 9/11 passenger security fees that are currently being used 
to pay for other Government programs should be used to fund 
TSA.
    Let me talk about PreCheck for just a moment. Chairman 
Katko was at the airport last November when we unveiled the TSA 
enrollment center in Syracuse. PreCheck has proven to be very 
successful at our airports. Currently, almost 40 percent of the 
flying public is enrolled in PreCheck.
    While we believe that this is the result of having an 
enrollment center in the terminal, our efforts to educate the 
public on the benefits of PreCheck have been very important. 
While seemly insignificant, the airport's role in incentivizing 
people to enroll in PreCheck by giving them free parking has 
resulted in the increased numbers of people enrolling. While 
not all airports are in a position to offer incentives, we have 
found that it has encouraged enough people to come out and 
spend an hour and enroll in PreCheck.
    I would be remiss if I did not bring up the need to 
modernize airport infrastructure. We have spent time and money 
improving our airport, consolidating our checkpoint into one 
central checkpoint, to introduce efficiencies at every level. A 
central checkpoint was designed to bring the physical screening 
of passengers and baggage in alignment. It improved passenger 
and baggage screening at several levels. It allowed for the 
introduction of new screening equipment, consolidated TSA 
resources into one, and it has allowed us to implement new 
security requirements, such as the screening of all concession 
employees.
    We have also been on the cutting edge of security by 
installing automated exit portals. These automated exit portals 
allow passengers and employees to exit the concourses safely 
and securely, without--preventing re-entry. It also eliminates 
the need to staff the exit lanes, thus saving the airport money 
and reducing the human error element. Let me stress that this 
project would not have been possible without the use of the 
airport's passenger facility charges.
    To place the blame solely on TSA is unfair and not a 
solution to the problem. Rather, we must work together to 
address the major underlying issues before you today.
    In closing, I would like to offer my gratitude to Chairman 
Katko and to the other Members of the subcommittee for taking 
the time to listen to our concerns. Thank you for inviting us 
and for your continued commitment to the safety and security of 
airports and the people who use them every day.
    [The prepared statement of Ms. Callahan follows:]
              Prepared Statement of Christina R. Callahan
                              May 26, 2016
    Good morning Chairman Katko and Ranking Member Rice and the other 
Members of the Transportation Security Subcommittee. Thank you for 
inviting us to today's hearing on an issue that requires both immediate 
attention and long-term, sustainable solutions--how to handle growing 
lines at TSA checkpoints at airports across the country.
    Syracuse Hancock International Airport is a small commercial hub, 
serving 2 million passengers annually, providing air cargo and general 
aviation services to the Central New York region, employing hundreds of 
people, and is a vital component of the economic engine that drives the 
success of our community. The airport is located in Onondaga County, in 
approximately the geographic center of New York State and is a joint 
use facility along with the 174th Attack Wing of the New York Air 
National Guard.
    While Syracuse has not experienced the recent increasing long 
security checkpoint times, we are part of a National air transportation 
system that links our passengers to the airports represented here today 
and working towards a solution as we near one of our busiest travel 
seasons in the year, as is important to us as it is to my fellow 
airport representatives.
    Ensuring the safety and security of the flying public, employees, 
and other airport users is the top priority for airports. Above all 
else, we are entrusted by the traveling public to provide safe and 
secure air transportation. Checkpoint wait times that exceed an hour or 
longer at some of our Nation's busiest airports, have negative impacts 
on all elements of the air transportation system. Passengers are 
frustrated, taking their frustrations out on TSA, airline, and airport 
employees; the anxiety caused by concern over missing a flight, or even 
worse, actually missing that flight, creates unease and unrest among 
all airport users.
    Several factors have been identified that have contributed to the 
checkpoint wait time issues. They include no increase in the number of 
Transportation Security Officers between fiscal years 2015 and 2016; 
the high rate of TSA attrition followed by the lengthy process to hire 
new TSOs; record growth in passenger traffic, and lagging numbers in 
PreCheck enrollment. Combined, they created a perfect storm of events 
that led to recent events.
    We have identified short-term and long-term recommendations that 
focus on key areas including the need for sufficient TSA staffing, 
increased PreCheck enrollment and participation, and the continued need 
to modernize airport infrastructure. We do not support the imposition 
of new passenger fees, rather we believe that the portion of the 9/11 
passenger security fees that are currently being used to pay for other 
Government programs, should be used to fund TSA.
    PreCheck has proven to be very successful at SYR. Currently, almost 
40% of passengers flying out of SYR are enrolled in PreCheck. We 
believe that this is the result of having an enrollment center in the 
terminal, our efforts to educate the public on the benefits of 
PreCheck, and while seemingly insignificant, the airport's offer to 
validate parking for PreCheck applicants. PreCheck customers bring 
their receipt to the airport's administration office after submitting 
their application and we validate their parking ticket. It is an 
incentive for people to make that appointment, drive to the airport, 
and enroll in PreCheck. While not all airports are in a position to 
offer free parking, we have found that it is enough of an incentive to 
get people to enroll in PreCheck.
    I would be remiss if I did not bring up the need to modernize 
airport infrastructure. Airports, like Syracuse, were not built to meet 
the demands of today's security requirements. Prior to 2013, Syracuse 
was in the same position many airports find themselves in today. Long 
lines, missed flights, and angry passengers. We decided to do something 
about it, and committed our PFCs through 2027 for the Passenger 
Terminal Security Improvements Project. We built a new, second-level 
central checkpoint which was designed to bring both the physical 
screening of passengers and baggage in alignment with current-day 
security requirements, and it also allowed for expansion and 
implementation of future screening requirements. The new centralized 
security checkpoint has improved passenger and baggage screening at 
several levels; new screening equipment including advanced imaging 
technology, implementation of TSA PreCheck; improved customer service 
by consolidating TSA resources into one, centralized location; and the 
ability to implement new security requirements, such as the requirement 
to screen all concession employees.
    Following completion of the centralized security checkpoint, the 
airport reconfigured the checkpoints located at the entrance of each 
concourse as passenger exit points, which had previously been used for 
passenger and baggage screening, as the exits for passengers leaving 
the secure area. The airport then installed automated exit portals in 
each concourse. The automated exit portals allow passengers and 
employees to exit the secure area safely, while at the same preventing 
people from accessing the secure area. The portals provide a positive 
barrier to security breaches by preventing people and things from 
entering or accessing the secure area from a non-secure area. Through 
the use of sensors, the portals can detect items that are left in a 
portal, such as keys, a cell phone, or a bag. If a foreign object is 
detected, the sensor will cause the portal to lock down until security 
personnel sweep the portal and clear it for use again. In addition to 
the safety and security benefits of the exit portals, the cost savings 
are such that the portals have paid for themselves. Because the exit 
portals are automated, the airport is no longer required to physically 
monitor the exit lanes, thus eliminating the human error element.
    To place the blame solely on TSA is unfair and not a solution to 
the problem. Rather, we must work together to address the major 
underlying issues addressed before you today. What we have learned in 
Syracuse is that communication and cooperation between the airport, 
TSA, and the airlines is critical to safe and efficient operations. As 
proposed in the Checkpoint Optimization and Efficiency Act of 2016, we 
agree that advisory committees be established at a local level. Working 
together rather than pointing fingers is the first key step at the 
local level.
    What the airports can offer today is the experience we have running 
one of the most complicated and complex transportation systems in the 
world. We believe that the focus areas we have identified and the 
solutions we have proposed will address some of the immediate concerns, 
but also layout a long-term plan for the continued safety and security 
of the flying public.
    Thank you for your time this morning.

    Mr. Katko. Thank you, Ms. Callahan. Syracuse is indeed very 
fortunate to have you at the helm at the airport. I can tell 
you from personal experience that it is a generally very 
pleasurable experience. The only thing that is difficult is 
when you are trying to get a flight to Kennedy and it always 
seemed to be delayed.
    But other than that, I really appreciate your efforts. Your 
forward thinking on getting a kiosk out at the airport, your 
forward thinking by giving free parking to TSA as like a 
marketing thing, that thinking outside the box, that is all 
good stuff. So thank you very much.
    I would like to have Ms. McSally introduce her friend from 
the Tucson airport.
    Ms. McSally.
    Ms. McSally. Thank you, Chairman Katko. I just want to say 
I really appreciate you being my wingman on this issue and many 
issues, letting me join this hearing today. I am also grateful 
for you inviting Bonnie Allin to testify this morning.
    Bonnie is the president and CEO of the Tucson Airport 
Authority responsible for promoting aviation services and 
related economic development for southern Arizona, including 
operations and maintenance of the Tucson International Airport 
and Ryan Airfield, where she has first-hand experience on the 
challenges related to TSA staffing.
    Bonnie began her career in aviation in 1976 with the Tucson 
Airport Authority, then moved to Texas, where she worked for 
Corpus Christi International, ending her tenure as director of 
aviation. She holds the designation of accredited airport 
executive and is the past chairman of the International 
Association of Airport Executives.
    I am glad to have Bonnie with us today, and I yield back.
    Mr. Katko. Ms. Allin, you are on.

STATEMENT OF BONNIE A. ALLIN, PRESIDENT AND CEO, TUCSON AIRPORT 
                   AUTHORITY, TUCSON, ARIZONA

    Ms. Allin. Thank you, Representative McSally, for the 
introduction.
    Good morning, Chairman Katko, Ranking Member Payne, 
honorable Members of the committee, Representative McSally. It 
is a privilege to appear before you this morning to discuss 
Tucson's challenges with passenger screening wait times.
    Mr. Chairman and Members, thank you for your leadership on 
airport security and the protection of our passengers.
    Representative McSally, thank you for your leadership in 
protecting Tucson International Airport in southern Arizona.
    I was fortunate to participate in last week's roundtable, 
which you mentioned, Mr. Chairman, and the discussion, and I am 
truly appreciative of the time and attention you are devoting 
to understanding the causes of checkpoint processing delays and 
your efforts to seek both short- and long-term solutions. 
Safety and security of our people, property, and aircraft are 
the highest priority.
    For those of you unfamiliar with Tucson International 
Airport, we are an origination and destination airport. 
Therefore, less than 5 percent of our passengers connect 
through. Instead, all are screened by local TSA. Historical 
wait times average 10 to 15 minutes, with our peak times rarely 
exceeding 20, 25 minutes maximum, even when we had passenger 
levels 25 percent higher than we do today.
    Tucson's high season, as opposed to many other airports, is 
November through March, with a very strong peak season mid-
January through March.
    Mr. Katko. I have to interject, and I can assure you that 
is not the high season in Syracuse. That is the high season for 
snow. I am sorry to interrupt you. I couldn't resist.
    Ms. Allin. We would love for you to visit Tucson in 
February, sir.
    This year our visitors, many, many visitors from the 
northern part of the country, and our Tucsonian customers 
experienced wait times 45 and sometimes in excess of 60 
minutes. There is an exhibit to my written testimony with a 
photo of the passengers lined up all across the front of our 
terminal.
    We have a very dedicated and loyal TSA staff who are 
committed to the safety, along with the efficient screening, of 
our passengers. Unfortunately, they lack the planning, 
coordination, and staffing resources needed to be able to 
efficiently process the passengers in our peak times.
    In May 2015, Tucson TSA lost between 10 and 13 percent of 
the workforce. It was a full year before replacements were 
trained and released to fully screen and have their duties. 
Combined with increased passenger levels, adding AIT equipment, 
and having limited authority due to inflexible staffing and 
processing models prescribed to them, they did not allow them 
to respond to the changing conditions, and as a result we 
experienced very long lines.
    I respectfully offer some recommended solutions for your 
consideration:
    It is recommended that the local TSA have the ability to 
openly communicate with their airport and airline partners in 
order to better plan and allocate their resources.
    That flexibility, autonomy, and authority be delegated to 
local TSA, within parameters, to adjust for changing 
conditions, especially spoke airports, such as Tucson.
    That regular and consistent staffing at PreCheck lines be 
allocated so that they can be opened; Tucson's 2 PreCheck lanes 
are open less than 5 hours a day, usually between 3 and 4.
    That the staffing allocation model be updated; it is 
inflexible and doesn't allow for changing conditions.
    That better utilization of existing resources and personnel 
be made, especially Behavioral Detection Officers.
    That effective outreach and marketing of PreCheck and 
Global Entry, as we are close to the border and it is a very 
high use there, be done to increase enrollment.
    That development of technology to help provide solutions be 
given a priority.
    That optimization of checkpoints be customized to best fit 
each airport and the information shared.
    Airports are willing to invest in effective solutions. 
Tucson will begin a $10-plus million project in June to 
relocate and expand our checkpoints to improve throughput. If 
they are not properly equipped and staffed, all of those 
resources will be lost.
    Mr. Chairman and Members, while none of these 
recommendations alone are a perfect fix, by stakeholders 
working together, we have the opportunity to solve the 
checkpoint issues and enhance the safety of our aviation 
system.
    We commend you on the proposed legislation, Checkpoint 
Optimization and Efficiency Act of 2016. If enacted, it will go 
a very long way towards providing solutions to the checkpoint 
wait issues.
    Thank you for this opportunity to share my views. I would 
be happy to answer any questions you might have.
    [The prepared statement of Ms. Allin follows:]
                 Prepared Statement of Bonnie A. Allin
                              May 26, 2016
    Good afternoon. My name is Bonnie Allin. I am the president/CEO of 
the Tucson Airport Authority, Federally-certificated operator of Tucson 
International Airport, a commercial service airport located in southern 
Arizona. The 5 largest U.S. domestic airlines providing service at 
Tucson International Airport fly to 18 non-stop destinations and/or 
connect our passengers to other destinations throughout the world. 
These airlines enplane approximately 1.8 million passengers each year, 
which is down from our peak in 2008 of approximately 2.1 million 
enplanements, a number we are beginning to grow back through various 
air service development initiatives. Ninety-five (95) percent of our 
traffic is origination/destination passengers, which means virtually 
everyone who travels through Tucson is subject to screening. 
Historically, passenger wait times at Tucson International Airport 
averaged approximately 10-15 minutes with maximum times rarely 
exceeding 20-30 minutes (even when we were at higher passenger levels). 
The safe, efficient, and convenient processing of passengers is a key 
element in growing our passenger levels.
    Chairman Katko, Ranking Member Payne, Representative McSally, 
Members of Congress, Members of the subcommittee, thank you for your 
leadership in this transportation security issue and the opportunity to 
speak with you today. It is my privilege to be here before you today to 
represent Category 1 (CAT1) airports.
    Mr. Chairman and Members, on behalf of all airports, we appreciate 
the efforts by Congress to determine the causes of the security 
screening checkpoint issues and to explore meaningful solutions that 
provide efficiency without sacrificing security. I also thank you for 
the opportunity to be with you this morning to discuss some of the 
challenges facing Tucson International Airport with regard to growing 
wait times at passenger screening checkpoints.
    I was fortunate enough to participate in last week's roundtable 
discussion on the same topic, and I am truly appreciative of the time 
and attention the subcommittee has devoted to understanding the causes 
of checkpoint processing delays and for your efforts to seek immediate 
and long-term action to address what is both an inconvenience for 
travelers and a security threat.
    I also want to thank Representative McSally for her focus on this 
issue and for her work to draw attention to some of the specific 
challenges we face in Tucson.
    The safety and security of people, property, and aircraft are our 
highest priority. Airports, airlines, and the TSA share the 
responsibility to provide this protection to the best of our combined 
abilities at commercial airports throughout the United States. This 
proactive protection can best be provided when all responsible parties 
are able to communicate effectively and have the authority to work 
collaboratively and cooperatively. It should be seamless and invisible 
to the traveling public, and it should be convenient and customer-
friendly. Airports appreciate the very critical mission TSA has to 
screen and protect passengers and property, and we applaud the 
dedication of the front line screeners who have a very challenging job. 
We commend the willingness of Administrator Neffenger to listen to 
stakeholders and effect change. We have a dedicated local TSA staff, 
with which we have a very good working relationship.
    Like many airports across the United States, Tucson International 
Airport has experienced issues with long security checkpoint lines due 
to TSA short-staffing, the unavailability of PreCheck, and a host of 
other issues. Tucson International Airport's peak period was January 
through April. During February and March peak periods, passenger lines 
would stretch from 1 of our 2 concourse checkpoints across the ticket 
lobby almost reaching the other end of the terminal. Please see Exhibit 
A. Flights were delayed to wait for passengers or some missed their 
flights. With full loads, rebooking was often a problem, particularly 
for those international customers with connections attending the 
International Tucson Gem and Mineral Show.
    The long lines at security checkpoints at U.S. commercial airports, 
including Tucson International Airport, clearly indicate the system is 
not working efficiently or meeting the shared goals. Tucson's 
historical average wait time was 10-15 minutes, and even when in years 
when passenger levels were at their highest, peak times rarely exceeded 
20-30 minutes. A common theme heard across the Nation's airports is 
increased number of passengers, increased leisure passengers, which are 
often families who are not frequent fliers and are slower to accomplish 
the screening process, and a reduction in TSA staffing over the last 
few years. This can be very frustrating when there is unused capacity 
in extra security lanes, but no TSA personnel to open them because of 
manpower shortage issues. Tucson is an origination and destination 
airport with less than 5% of our passengers transferring, thus has a 
high proportion of passengers to be screened.
    In addition, under the TSA model, PreCheck is open on average less 
than 5 hours a day (both concourses total) due to TSA being 
understaffed and not able to get the manpower needed to provide this 
important service. As we observe and understand the model, one regular 
lane is open and PreCheck passenger are provided ``PreCheck light.'' 
PreCheck light is where a passenger is given a card by the Travel 
Document Checker (TDC) that allows the passenger to keep their shoes 
and jacket on, but must divest of all other items such as liquids and 
laptops. They then must go through the same screening line as the non-
PreCheck customers. This is unfortunate because the TSA promotes this 
program, passengers pay to sign up, then face disappointment and 
extreme frustration when they arrive at the airport and find that the 
TSA PreCheck lane is not open. The TSA needs to commit to this program, 
and this commitment requires staffing resources.
    TSA has limitations on the number of Full Time Employee (FTEs) they 
can hire. TSA could be more flexible and cross-train functions to 
perform more than one security task to increase efficiency when 
scheduling or manpower demands arise. For instance, Behavior Detection 
Officers (BDOs) are not certified to perform all screening functions 
like X-ray, but are trained to be TDCs utilizing their deception 
detection training.
    The TSA is facing a manpower shortage, and it will take time for 
the TSA to hire, train, and certify the new FTEs. Short-term solutions 
aimed at reducing customer wait times are necessary to manage the 
summer travel season.
    I would like to ask your consideration of potential recommended 
solutions.
    Establish more effective and consistent communication and 
coordination.
    We applaud your proposed legislation ``Checkpoint Optimization and 
Efficiency Act of 2016'' requiring each airport establish a joint 
committee of airport, airline, and TSA representatives that has 
mandatory meetings, and has the authority to review advance boarding 
data, proactively plan and schedule for the effective screening of 
passengers and bags, and the protection of property and aircraft. The 
committee should have the ability to meet, as necessary, to react to 
emerging issues.
    TSA's local airport representatives should be delegated the 
authority to be an effective member of the committee and have the 
ability to make quick adjustments within established broad parameters 
to meet the mission.
    When lines reach a certain maximum throughput with 1 lane open, the 
local TSA is authorized to open a second regular lane. The staffing 
model does not allow sufficient staff to open the PreCheck lane instead 
of a regular lane which would greatly expedite the screening process 
throughput. Some small airports have reported that TSA will close their 
checkpoint for the night after the last scheduled departure due to the 
inability to keep staff on overtime. Passengers track the flight via 
the airline and know a flight is late, show up for the flight and are 
not allowed to board because they cannot be screened. Local control to 
manage unusual situations would greatly improve throughput 
capabilities.
    More efficient use of existing resources is recommended. Your 
legislations' proposal to utilize TSA BDOs during peak periods to the 
TDC positions would provide an immediate increase in manpower. This 
will allow the BDOs to use their behavioral detection skills by having 
direct contact with every passenger prior to the passenger passing 
through the security screening checkpoint. We understand and appreciate 
that Administrator Neffenger has already approved this change.
    Allow the TSA the flexibility to utilize non-certified screening 
personnel to perform divestiture, bin-running, line management, and 
exit lane duties during peak times. This will allow the certified 
Transportation Screening Officers (TSOs) to focus on and expedite the 
security screening functions.
    Authorize the immediate replacement of and expedite the hiring of 
replacement TSOs. Currently, the hiring process can take as long as 12 
months for the TSA to hire, train, and certify replacement personnel. 
In May 2015 Tucson International Airport TSA lost 10% of its workforce. 
Those positions, plus others lost through regular attrition were not 
hired, trained, certified and in place until the end of April 2016. 
This process is too long, degrades efficiency, and creates extreme 
passenger frustration through long wait or missed flights.
    Authorize the TSA to conduct standardized local TSO training until 
the backlog of hiring and training is eliminated. A long-term solution 
could be to consider opening more than one center, geographically 
located throughout the country to allow for shorter waits for training 
slots.
    Appropriately staff all airport security screening checkpoints, 
including having dedicated staff and a predictable schedule to 
adequately staff the PreCheck during peak travel hours and airport 
operating hours.
    In many cases, the Federal Security Director may be responsible for 
more than 1 airport. This means that ``spoke airports'' are 
geographically separated (example: Phoenix and Tucson; Las Vegas and 
Reno). It is recommended that the TSA official at the ``spoke airport'' 
have the authority to effectively manage for exceptions and have the 
flexibility to increase part-time hours, reduce the need for excessive 
overtime, and make other operational decisions, as needed.
    Update the TSA Staffing Allocation Model (SAM) to be flexible and 
adapt to the changing conditions of an airport and airline environment. 
The present model is rigid and relies heavily on the prior years' data. 
The SAM needs to be reviewed frequently (perhaps quarterly) and 
incorporate triggers that better take into account new flights, new or 
up-gauged equipment, the change in passenger numbers, expanded hours, 
etc. When the triggers are activated, there should be the flexibility 
to make adjustments immediately. Allow local TSA involvement and 
consultation or sharing with local airports and airlines.
    Allow TSA to authorize the PreCheck enrollment contractor to deploy 
flexible strategies for enrollment in airports at peak times. The 
Contractor needs to have an effective education and marketing program 
to inform and register passengers for PreCheck. Offsite centers do not 
attract or inform passengers. They are most likely to sign up when 
standing in checkpoint lines. Consider reduced or no-cost enrollment 
until the numbers reach TSA goals.
    Deploy passenger screening canines at the high volume airports to 
expedite the screening process.
    Your Congressional review and oversight of how the financial 
resources collected from passengers are utilized to ensure the 
resources are prioritized and effectively used for the benefit of 
protection of people, aviation property, and aircraft would be helpful.
    Technology should be developed, tested, approved, and deployed in 
an expedient time frame. Consider funding pilot programs with academic 
or private company partnerships to encourage development of new 
technology.
    Understand that each airport has infrastructure and needs that are 
unique and different from other airports. There is no ``one size fits 
all.'' While there needs to be standardization in the security 
screening process, the layout of checkpoints should include more 
flexibility to make adjustments that allow for the effective use the 
area, equipment, and personnel.
    Deploy the TSA optimization teams to review the checkpoint layouts 
and include the airport and airlines serving that airport in the review 
and recommendation process.
    We are grateful to advise that the TSA at Tucson International 
Airport is receiving the trained staff replacements, and are able to 
adjust the overtime to better cover peak periods. We are now at the end 
of our busy season, and with these replacements, the lines' wait times 
have been reduced and are now closer to normal. Our concern is that 
when traffic picks up in the fall for the holidays and our peak season 
that the long lines will return. With implementation of the changes you 
recommend, especially allowing for PreCheck to be open longer, this can 
be mitigated. We are also hopeful that some of these recommendations 
will be helpful to many airports throughout the United States.
    As a long-term solution, the Tucson Airport Authority is doing its 
part by investing $10.7 million into relocating both checkpoints to 
allow for additional lanes to accommodate passenger growth through a 
Terminal Optimization Project. This solution will only be effective if 
it is appropriately equipped and staffed.
    In closing, I want to thank Chairman Katko, Ranking Member Payne, 
Representative McSally, Members of Congress, Members of the 
subcommittee, for your time today and your thoughtful consideration of 
the issues and solutions presented. We also appreciate TSA 
Administrator Neffenger's willingness to work toward and try ideas to 
achieve solutions. Airports stand ready to work with you and the TSA to 
put in place effective solutions that properly protect and serve our 
passengers.
    Thank you for the opportunity to appear before you. I am happy to 
answer any questions you may have.
                         Attachment.--Exhibit A
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Katko. Thank you, Ms. Allin, for your testimony. We 
appreciate you being here today. It is interesting to juxtapose 
your experiences at your airport with what we experience in 
Syracuse. It seems like the larger the airport, the more acute 
the problems.
    Now we are going to talk to Ms. Beairsto about that.
    So, Ms. Beairsto, I appreciate your testimony today, and 
you have 5 minutes. Thank you.

 STATEMENT OF LYDIA BEAIRSTO, MANAGING DEPUTY COMMISSIONER FOR 
  SECURITY, DEPARTMENT OF AVIATION, CITY OF CHICAGO, ILLINOIS

    Ms. Beairsto. Thank you, Chairman Katko, Ranking Member 
Payne, and Members of the subcommittee for inviting me to 
testify today on this important issue of providing efficient 
and safe passenger screening at our airports. My name is Lydia 
Beairsto. I serve as the managing deputy commissioner for 
public safety and security for the Chicago Department of 
Aviation, overseeing O'Hare and Midway International Airports.
    Chicago manages 2 of the Nation's busiest airports, O'Hare 
and Midway, and it is the only single-city system that serves 
as a hub for 3 major airlines, United, American, and Southwest 
Airlines. In 2015, 98 million passengers passed through our 
airports combined. In 2016 and beyond, those numbers are 
projected to grow.
    Our airports serve as an economic engine, contributing $45 
billion in annual economic activity, creating 540,000 jobs. We 
are a major part of the air ecosystem. When O'Hare sneezes, the 
rest of the country catches a cold.
    Passenger safety and security is our top priority, and it 
is certainly mine. In March, suicide bombings at Brussels 
Airport killed 16 people in the airport check-in areas and 16 
others in the city metro station. Long security lines, large 
crowds of passengers in queues are not just an inconvenience. 
They, themselves, expose a vulnerability and security risk.
    By more efficiently moving passengers into the screened and 
secure areas, we are increasing safety and security. This year, 
there has been a 7 percent growth in passenger activity, while 
TSA staffing levels declined nearly 17 percent.
    Airports and airlines began raising concerns about security 
staffing for the summer travel season as early as last summer. 
By early May of this year, as our peak travel season started, 
we started experiencing a total breakdown. Passenger wait times 
were consistently 60 minutes or more. Airline passengers have 
reported wait times as high as 120 minutes, with thousands of 
passengers missing their flights.
    The delays we experienced were knowable and preventable. 
Staff resources went down as security operating procedures 
changed.
    Moving forward to address these issues, TSA resources are 
needed to increase and meet passenger demand. TSA needs to 
manage existing resources better. TSA needs flexibility and 
local authority to respond to situations on the ground.
    May 13, a traveler at Midway Airport posted a YouTube video 
documenting significant checkpoint lines. Six out of 17 lanes 
were staffed by TSA.
    At O'Hare, the situation reached crisis point on Sunday, 
May 15, where without adequate staffing American Airlines 
reported 543 passengers were impacted by long lines. United 
Airlines experienced 37 flight delays and rebooked over 4,300 
passengers, many of which, as you noted, Chairman, stayed 
overnight at the airport sleeping on cots.
    Mayor Rahm Emanuel worked with key officials from DHS, TSA, 
and members of Chicago's Congressional delegation to secure 
immediate resources for the city. TSA sent in optimization 
teams. They committed to add 58 officers to O'Hare, converted 
over 160 part-timers to a full-time duty, increased overtime, 
and provided 8 additional K-9 teams to O'Hare from around the 
country.
    We greatly appreciate Administrator Neffenger's 
responsiveness and that resources arrived so quickly for 
O'Hare. We are working to ensure similar prompt responses to 
the needs and concerns at Midway Airport.
    This response was possible because Congress approved TSA's 
reprogramming request, and we are grateful to you for taking 
that quick action.
    To ensure transparency, we will be releasing a biweekly 
scorecard showing average and maximum wait times, staffing and 
resource levels provided by TSA.
    In the short term, in order to manage the spring and summer 
travel season ahead, there are a few critical resources and 
management steps that we need to ensure are happening:
    Reallocate passenger-screening K-9 teams based on the 
aviation system priorities.
    Ensure TSA is transparent about its staffing allocation 
models and levels; information transparency helps us better 
predict potential staffing strategies and shortages.
    Provide Federal security directors the ability to make 
local decisions about manpower allocation and overtime.
    Ensure checkpoints are open on time or risk playing catch-
up all day.
    Streamline TSA PreCheck enrollment process.
    In the long term we need to be looking at ramping up 
resources, including passenger screening K-9s. To prepare for 
future growth, we need to start now, as training K-9s can take 
approximately up to 8 months. We need to invest in our security 
infrastructure and checkpoint expansion projects and invest in 
technology solutions that enhance security and achieve 
operational efficiencies.
    Thank you for the opportunity to discuss these important 
and timely issues with you today. We are eager to work with you 
and secure needed resources to address short-term and long-term 
airport security challenges.
    Mr. Katko. Thank you, Ms. Beairsto. Much of what you 
described towards the end of your testimony is embodied in the 
bill we are going to be presenting today to Congress. It is 
born out of our discussions with some of the folks in the 
audience last week and some of you, and I appreciate that. It 
is important.
    One side thing that you said that caught me was opening the 
gates on time. If I understand, and perhaps you can all comment 
on this later, sometimes they open the gate at, like, 5:30 in 
the morning, but they don't actually start screening passengers 
for a while because they have to calibrate the machines and 
stuff. Then once the back-up starts, you can't catch up. That 
is just poor planning.
    So there is much more to talk about with all of, but thank 
you very much for your testimony.
    I now recognize Ms. Kerry Philipovitch, the senior vice 
president for customer experience at American Airlines--which I 
know very well because that is how I get here every week--for 
her testimony.

    STATEMENT OF KERRY PHILIPOVITCH, SENIOR VICE PRESIDENT, 
             CUSTOMER EXPERIENCE, AMERICAN AIRLINES

    Ms. Philipovitch. Thank you for flying with us.
    Good morning Chairman Katko, Congressman Payne, and Members 
of the subcommittee. My name is Kerry Philipovitch, senior vice 
president of customer experience at American Airlines, 
testifying on behalf of Airlines for America. Thank you for 
inviting me here today to discuss the impact TSA security lines 
is having on our customers.
    There is nothing more important to the airline industry 
than the safety and security of our passengers, employees, and 
cargo. We have never seen TSA wait times that affect airlines 
and passengers throughout the United States like we have seen 
in recent months.
    Without immediate leadership and innovation, the 231 
million Americans that will board a plane this summer will be 
frustrated and angry. We are working collaboratively with the 
TSA to develop and implement solutions to the pressing problem 
of excessive wait times.
    Last year, programs that had been in place to drive 
efficiency and increase security throughput were eliminated 
without adding resources required to support longer passenger 
processing times. The result is a screening process that is 
causing unacceptably long security lines and a frustrated 
flying public.
    Our discussions with TSA revealed 3 other contributing 
factors. First, it appears TSA did not adjust its staffing 
model after screening protocols were changed. Second, TSA is 
experiencing abnormally high attrition and is unable to retain 
transportation security officers, or TSOs. Third, the TSA 
PreCheck program, which allows low-risk passengers to go 
through expedited screening, has not met enrollment goals.
    All of these factors combined cause a systemic slowdown in 
passenger processing at security checkpoints, resulting in 
delays and missed flights. Year-to-date, more than 70,000 
American Airlines customers have missed flights due to 
excessive wait times.
    The same challenges at the passenger checkpoints bog down 
screening of checked baggage, which is also a core TSA 
function. This year alone, over 40,000 checked bags were 
delayed in TSA screening and did not travel on their scheduled 
flights.
    To say customers are agitated is putting it mildly and the 
public outcry has resonated. Congress recently reallocated $34 
million in funding to the TSA to hire more TSOs by June 15. We 
are also glad to see that TSA is working to shift K-9 teams to 
airports experiencing the worst delays, rebalancing staffing, 
and hiring more TSOs.
    However, TSA needs to do more, and more collaboration is 
needed to minimize the impact on summer travelers, airports, 
airline employees, and the overall economy.
    Airlines are pitching in to do our part. We are committing 
millions of dollars to fund nonsecurity functions like bin 
running and queue management so TSAs can focus solely on 
screening customers.
    At American this summer, we are adding an additional $4 
million on top of the $17 million already planned to spend this 
year to facilitate passengers through TSA checkpoints at our 
largest airports. Airlines have advised customers to arrive at 
the airport 2 hour in advance of a domestic flight and 3 hours 
prior to an international departure to ensure sufficient time 
to clear security. This added time in the travel process is 
inconvenient and will likely affect less frequent travelers who 
are not familiar with the screening process.
    We are launching aggressive campaigns to promote TSA 
PreCheck to our customers and employees. As PreCheck enrollment 
increases, however, TSA must commit to keep PreCheck lanes open 
and sufficiently staffed throughout the day, especially during 
peak travel times.
    The industry is also exploring ways to facility support for 
additional K-9 teams, including whether TSA can use certified 
K-9s from other Governmental agencies to conduct passenger 
screening. When K-9 teams are deployed, TSA can increase 
passengers going through TSA PreCheck.
    We as an industry are doing our part to help TSA manage 
through this challenge. However, airline actions alone cannot 
solve the problem. We need a partner in TSA that will consider 
innovative ideas to mitigate wait times immediately and in the 
long run.
    In the short term, to augment resources, TSA could declare 
an all-hands-on-deck for the summer, much like we do at our 
airports during peak and irregular operations. All available 
staff should be assigned to help at passengers screening 
checkpoints. TSA resources should be prioritized based on 
airports with the most need and projected traffic volumes.
    TSA could look at ways to spur enrollment in TSA PreCheck 
by streamlining the enrollment process. To ensure that 
enrollment resources don't become a new bottleneck, TSA should 
expedite its selection of third-party enrollment providers.
    We also support the idea to give Federal security directors 
the ability to cooperate with their airline partners to make 
local decisions about manpower resource allocation without 
having to consult TSA headquarters.
    All parties need to work collaboratively to manage through 
the summer. Full transparency to staffing models and 
performance data is required to engage all stakeholders in 
troubleshooting issues. We can't be a part of the solution if 
we don't have all the facts.
    To that point, we applaud TSA for its decision this week to 
stand up a National command center and institute daily 
stakeholder calls to better prepare for each day's challenges.
    In the long run, TSA could review current security 
protocols to ensure there are no unnecessary procedures. As 
part of this review, TSA should consider additional methods for 
increasing risk-based screening, some of which were 
discontinued this year.
    Airlines and airports are eager to work with TSA to 
expedite next-generation screening technology, including 
innovation lanes.
    Finally, TSA must create a position that reports to the 
administrator to advocate for customers within the TSA, much as 
airlines and many airports have executives dedicated to 
improving customer experience.
    These are just a few ideas that American Airlines and A4A 
believe can help reduce the congestion in security screening. 
Of course, Congress can help by ensuring Administrator 
Neffenger and his team have the tools and resources needed to 
improve screening, including ensuring that the passenger 
security fee collected for TSA goes to TSA.
    Ultimately, the TSA screening issue was not created 
overnight and will not be solved overnight. However, we must 
work together to offer ideas and resources to TSA while 
Administrator Neffenger and his team review current screening 
protocols, funding priorities, and management practices.
    Thank you for the opportunity to testify today, and I would 
be happy to answer any questions you might have.
    [The prepared statement of Ms. Philipovitch follows:]
                Prepared Statement of Kerry Philipovitch
                              May 26, 2016
    Good morning Chairman Katko, Ranking Member Rice, and Members of 
the subcommittee. My name is Kerry Philipovitch, senior vice president 
of customer experience at American Airlines, testifying on behalf of 
Airlines for America. Thank you for inviting me here today to discuss 
the impact TSA security lines is having on our customers.
    The subcommittee's focus on this issue is both timely and 
beneficial since we are just 2 days shy of the Memorial Day weekend and 
the start of the busy summer travel season. Regardless of timing, there 
is nothing more important to the airline industry than the safety and 
security of our passengers, employees, and cargo.
    We have never seen TSA wait times that affect airlines and 
passengers throughout the United States like we've seen in recent 
months. Without immediate leadership and innovation, the 231 million 
Americans that will board a plane this summer will be frustrated and 
angry passengers. We are working collaboratively with the TSA to 
develop and implement short-, medium-, and long-term solutions to the 
pressing problem of excessive wait times, but more needs to be done, 
and fast.
                        the root of the problem
    Up until last year, TSA front-line employees kept our skies safe 
while efficiently moving passengers through the screening process. 
Programs that had been in place to drive efficiency and increase 
security throughput were then eliminated without adding commensurate 
resources required to support longer passenger processing times. The 
result is a screening process that is causing unacceptably long 
security lines and a frustrated flying public.
    Our discussions with the TSA have revealed 3 other contributing 
factors. First, it appears TSA did not adjust its staffing model after 
screening protocols were changed. Second, TSA is experiencing 
abnormally high attrition and is unable to retain Transportation 
Security Officers, or TSOs. Third, the TSA PreCheck program, which 
allows low-risk passengers to go through an expedited screening 
process, has not met enrollment goals.
    All of these factors combined caused a systemic slowdown in 
passenger processing at security checkpoints, resulting in delays and 
missed flights. Year-to-date, more than 70,000 American Airlines 
customers have missed flights due to excessive wait times.
    The same challenges at passenger checkpoints bog down screening of 
checked baggage, which is also a core TSA function. This year alone, 
over 40,000 checked bags were delayed in TSA screening and did not 
travel on their scheduled flight, causing further inconvenience to our 
customers.
    To say customers are agitated is putting it mildly, and the public 
outcry has resonated. Congress recently reallocated $34 million in 
funding to TSA to hire more TSOs by June 15. We are also glad to see 
that TSA is working to shift canine teams to airports experiencing the 
worst delays, rebalancing staffing and hiring more TSOs.
    However, TSA needs to do more, and more collaboration is needed to 
minimize the impact on summer travelers, airports, airline employees, 
and the overall economy.
               airlines are doing our part to support tsa
    Airlines are pitching in to do our part. We are committing millions 
of dollars to fund non-security functions--like bin running and queue 
management--so TSOs can focus solely on the screening aspects of their 
jobs. At American, this summer we are adding an additional $4 million 
on top of our $17 million of planned spend this year to facilitate 
passengers through TSA checkpoints at our largest airports.
    Airlines have advised customers to arrive at the airport 2 hours in 
advance of a domestic flight and 3 hours prior to an international 
departure to ensure sufficient time to clear security. This added time 
in the travel process is inconvenient, and will likely affect less 
frequent travelers who are not familiar with the screening process. The 
added hassle also has the potential to significantly dampen demand for 
air travel.
    We are launching aggressive campaigns to promote TSA PreCheck to 
our customers and employees. As PreCheck enrollment increases, however, 
TSA must commit to keep PreCheck lanes open and sufficiently staffed, 
reliably throughout the day, especially during peak travel times.
    When canine teams are deployed, TSA can increase passengers going 
through TSA PreCheck. The industry is also exploring ways to facilitate 
support for additional canine teams, including whether TSA can use 
certified canines from other Governmental agencies to conduct passenger 
screening.
    We, as an industry, are doing our part to help TSA manage through 
this challenge.
 airlines are willing to work with tsa to solve the security screening 
                                 issue
    However, airline actions alone cannot solve the problem. We need a 
partner in TSA that will consider innovative ideas to mitigate wait 
times immediately and in the long run.
    In the short term, to augment resources, TSA could declare an ``all 
hands on deck'' for the summer much like we do at airports during peak 
and irregular operations. All available staff--whether full-time, part-
time, administrative, or based at headquarters--should be assigned to 
help at passenger screening checkpoints. TSA resources should be 
prioritized based on airports with the most need and projected traffic 
volumes.
    TSA could look at ways to spur enrollment in TSA PreCheck by 
streamlining the enrollment process, and potentially reducing the fee 
to enroll. To ensure that enrollment resources don't become a new 
bottleneck, TSA should expedite its selection of third-party enrollment 
providers.
    We also encourage TSA to give Federal Security Directors the 
ability to coordinate and cooperate with their airline partners to make 
local decisions about manpower resource allocation without having to 
consult TSA headquarters.
    TSA, airports, and airlines need to work collaboratively to manage 
through the summer. Full transparency to staffing models and 
performance data is required to engage all stakeholders in 
troubleshooting issues. We can't be a part of the solution if we don't 
have all the facts.
    To that point, we applaud TSA for its decision, this week, to stand 
up a National command center and institute a daily stakeholder call to 
better prepare for each day's challenges.
    In the long run, TSA could review current security protocols to 
ensure there is no duplication or unnecessary procedures. As a part of 
this review, TSA should consider additional methods for increasing 
risk-based screening, some of which were discontinued last year.
    Airlines and airports are eager to work with TSA to expedite next 
generation screening technology, such as that found in Innovation 
Lanes.
    Finally, TSA must create a position that reports to the 
administrator to advocate for customers within TSA, just as airlines 
and many airports have executives dedicated to improving customer 
experience.
    These are just a few ideas that American Airlines and A4A believe 
can help reduce the severe congestion in airport security screening. Of 
course, Congress can help by ensuring Administrator Neffenger and his 
team have the tools and resources needed to improve screening, 
including ensuring that the passenger security fee collected for TSA 
goes to TSA.
a short-term moratorium on baggage fees will not help or fix the broken 
                                 system
    We challenge all stakeholders to offer constructive ideas that will 
bring relief. Yet, one idea we have heard is for airlines to waive 
checked baggage fees this summer. The rationale is that the number of 
bags screened at passenger checkpoints would decrease so appreciably 
that the TSA wait times would return to normal. The premise of the idea 
is flat-out wrong, and distracts from the root problems of the TSA 
crisis.
    The fact is that bag fees have been in place since 2008, but 
travelers have never been impacted by TSA wait times like we've 
recently seen.
    Over the last few months, all passengers have experienced long TSA 
lines, even those flying on carriers that do not charge bag fees. 
Chicago Midway, for example, is served predominantly by one of our 
competitors that does not charge checked baggage fees, yet airport 
security wait times have still been in excess of 90 minutes. There is 
simply no correlation.
    Waiving checked baggage fees would not have any material impact on 
wait times. Indeed, TSA's own data shows the number of checked bags per 
person has remained relatively unchanged for the past 5 years.
    What we do believe, however, is that eliminating bag fees certainly 
would increase the number and size of checked bags. Additional checked 
bags would further inundate TSA baggage screening, which already lacks 
the resources to timely and consistently screen checked bags.
    Phoenix and Miami, two of American's hubs, have suffered from 
baggage delays in recent months. Both airports have sustained tens of 
thousands of misconnected checked bags solely due to TSA issues.
    This idea isn't helpful, it's harmful. It wouldn't help the core 
problem of wait times but it would make the checked baggage problem 
worse. And, at a time all airlines are trying to help TSA through their 
crisis, it is diverting attention from that effort.
                       working toward a solution
    Ultimately, the TSA screening issue was not created overnight, and 
will not be solved overnight. However, we must work together to offer 
ideas and resources to TSA while Administrator Neffenger and his team 
review current screening protocols, funding priorities, and management 
practices.
    The industry continues to work cooperatively with TSA, airports and 
other stakeholders to better serve our valued customers.
    Thank you for the opportunity to testify, and I would be happy to 
answer any questions you may have.

    Mr. Katko. Thank you, Ms. Philipovitch. I appreciate your 
testimony.
    We will have several follow-up questions for all of you, of 
course.
    I now recognize David Cox, National president of the 
American Federation of Government Employees, for his testimony.
    Mr. Cox.

 STATEMENT OF J. DAVID COX, SR., NATIONAL PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Cox. Thank you, Mr. Chairman, Representative Payne, 
Members of the committee. I am proud to testify today on behalf 
of the 42,000 transportation security officers, TSOs, that AFGE 
represents that stand on the side of the safety of the flying 
American public.
    TSOs point to 4 issues that have conspired to produce the 
acute situation at airports we see today. No. 1, the size of 
the TSO workforce did not keep pace with passenger volume. No. 
2, TSA's budget was deprived of much-needed funding by the 
decision of Congress to divert a portion of the security fee to 
deficit reduction. No. 3, the focus on the patchwork of 
airline, airport, and contract employees shifted focus away 
from the TSO workforce that is the present and future of 
aviation security. No. 4, TSOs are subject to second-class 
treatment that hurts the morale of TSOs who stay on the job and 
causes too many experienced screeners to leave TSA.
    As passenger volume has increased 15 percent between 2013 
and 2016, TSA lost almost 5,000 screeners and failed to replace 
them. TSA's hiring was focused on part-time workers who have a 
much higher attrition rate than full-time TSOs. TSA's staffing 
methodology and model depended on PreCheck enrollments that 
never happened. Congress cut the budget for TSA personnel and 
imposed arbitrary caps on the number of full-time screeners.
    Staffing shortages are obvious to the public because they 
experience long lines. Least obvious are the effect of 
shortages on the TSO workforce--missed trainings, meals, and 
rest breaks, missed position rotations that are necessary to 
keep your focus, cancelled days off, and months of mandatory 
overtime, resulting in very tired and erratic scheduling. This 
is no way to run airport security.
    AFGE advocates an increase of 6,000 additional full-time 
TSOs to the workforce. The figure represents the decrease in 
the size of the TSA workforce since 2011 as passenger volume 
has grown 15 percent.
    AFGE also calls on Congress to end the arbitrary and severe 
cap on full-time TSOs. When Congress voted to divert 60 cents 
of the $5.60 security fee per enplanement to the Treasury 
rather than TSA, it deprived the agency of 1.25 billion--that 
is billion with a ``b''--dollars each year. It is time for 
Congress to dedicate the proceeds of the security fee to TSA to 
be used for its intended purpose, funding the agency's security 
mission and hiring staff.
    Introducing airline and airport employees and private 
contract employees into the framework of checkpoint security 
is, at best, a temporary bandage. Years of on-the-job 
experience and commitment to the public are the services that 
are lost when the TSO workforce is replaced with airport and 
airline employees.
    Airport authorities should be aware that they are not going 
to get more screeners under the Screening Partnership Program 
and that there are long checkpoint waits at airports with 
private screeners.
    Despite the importance of their work, TSOs receive second-
class treatment from their employer, the Federal Government. 
TSA is the only Federal agency that is allowed to excuse itself 
from the fundamental workplace rights and protections found in 
title 5 of the U.S. Code. TSA does not follow the Fair Labor 
Standards Act and the Office of Personnel Management guidelines 
on leave. TSA does not have statutory title 7 protections 
against discrimination, and they are not paid under the general 
schedule like the majority of Federal workforce. TSOs lack the 
ability to appeal adverse personnel actions to a neutral third 
party, like the Merit System Protection Board, even those TSO 
management has that right.
    To paraphrase the late Dr. Martin Luther King, Jr., justice 
delayed has been justice denied to the TSO workforce. It is 
well within the authority of both the Congress and TSA to 
provide TSOs the same workplace rights and protections as other 
Federal workers.
    We urge Administrator Neffenger to apply title 5 rights and 
protections to the TSO workforce. Congress should pass H.R. 
4488, the Rights of Transportation Security Officers Act, 
introduced by Representatives Bennie Thompson and Nita Lowey. 
The bill requires that TSA follow the same workplace rules as 
most agencies in the Federal Government. Congress should also 
ensure funding to TSA to provide 5 percent retention raises to 
TSOs who have been on the job for 2 or more years.
    Transportation Security Officers do all they can to screen 
passengers. That is why AFGE pledges to work with TSA, 
Congress, and the public on solutions for the long lines. Mr. 
Chairman, AFGE is asking and seeking a seat at the table to be 
part of the solution, not part of the problem, in what we are 
currently experiencing in TSA.
    Thank you very much for allowing me to testify today. I 
would be glad to take any questions.
    [The prepared statement of Mr. Cox follows:]
                Prepared Statement of J. David Cox, Sr.
                              May 26, 2016
    Mr. Chairman, Ranking Member Rice, and Members of the subcommittee: 
My name is J. David Cox, Sr., and I am the National president of the 
American Federation of Government Employees, AFL-CIO (AFGE). On behalf 
of the more than 670,000 Federal and District of Columbia workers our 
union represents, including over 42,000 Transportation Security 
Officers (TSOs) working to provide safe and secure travel for over 2 
million passengers each day, I thank you for the opportunity to testify 
today on ``Long Lines, Short Patience: Local Perspectives.'' TSOs have 
always stood on the side of the flying public. Their job is to provide 
efficient screening to the best of their abilities to keep passengers 
safe when they fly. Even though TSOs did not create the conditions 
resulting in seemingly endless lines at airport checkpoints, they are 
ones who must deal directly with the shortsightedness of the 
Transportation Security Administration (TSA), the airlines, airport 
authorities, and the Congress. AFGE's TSA members have much to offer as 
all parties begin to work together to resolve the challenges of long 
passenger wait times without sacrificing security.
    The TSO workforce observes current conditions at checkpoint and 
also witnessed the emergence and growth of all the problems that are 
only recently the subject of news stories. These long lines were an 
inevitable consequence of decisions that have been made by TSA and 
Congress over the past 5 years. TSOs can point to 4 issues that have 
conspired to produce the acute situation we see today: (1) Decline in 
the size of the TSO workforce; (2) Diversion of the security fee; (3) 
Emphasis on an array of non-Federal personnel as a temporary ``fix'' to 
staffing issues; and (4) Second-class treatment of the TSO workforce.
    1. The TSO workforce was allowed deliberately to fall by attrition 
        while passenger volume increased.--TSA admits that TSO staffing 
        levels fell from 47,147 full-time employees to 42,525 between 
        2013 and 2016. Concurrent passenger volume rose 15 percent in 
        this period. According to recent Congressional statements, in 
        2014, TSA only hired 373 workers to replace the 4,644 who left 
        the agency. The few employees hired during that period of time 
        were disproportionately part-time TSOs who have a much higher 
        attrition rate than the full-time TSO workforce. Congress cut 
        the TSA budget for TSO compensation and benefits and continued 
        a misguided cap on the number of full-time employees. TSA 
        failed to request the funding needed to fully staff checkpoints 
        or even hire up to the statutory cap. TSA's staffing 
        projections included passenger participation in PreCheck that 
        never materialized. The Staffing Allocation Model (SAM) did not 
        take into account these factors and clearly fell short of the 
        deployments necessary to prevent long waits at checkpoint. The 
        impact on the flying public is obvious: Wait times that are up 
        to 3 hours long and missed flights have become a normal part of 
        the flying experience for passengers. The impact on TSOs is 
        less obvious: TSOs often do not rotate positions (a requirement 
        to retain focus), miss trainings, meals, and rest breaks and 
        for months have endured mandatory overtime and cancelled days 
        off due to TSA's operational needs. Female TSOs face an 
        additional burden because of the continuing inadequate male to 
        female ratios at the airports. The current crisis was both 
        foreseeable and preventable.
    2. Airline fees and distribution of the security fee.--Two fees 
        affect the checkpoint: Airline fees for checked baggage and the 
        diversion of .60 of every $5.60 of the security fee collected 
        to deficit reduction instead of screening. Many passengers seek 
        to avoid the checked baggage fee charged by airlines, which is 
        typically $25 for the first bag and $35 for the second with 
        carry-on bags. TSOs report the number of bags passengers screen 
        as carry-ons has increased with the fees. Although Congress 
        increased the security fee in 2014, $1.25 billion each year is 
        diverted to deficit reduction. Airline checked bag fees have 
        changed the behavior of the flying public while much of the 
        security fee needed to fund screening operations is currently 
        beyond TSA's grasp.
    3. The patchwork of airline, airport, and contract employees 
        working around the checkpoint.--The use of airline and airport 
        authority employees included in Department of Homeland Security 
        Secretary Jeh Johnson's plan and individual decisions by 
        airport authorities to hire contract workers undermine the 
        ability to realize a permanent solution for current staffing 
        shortages. The safety of the public required Federalization of 
        screening duties following the terrible events of September 11, 
        2001. Airports in the Screening Partnership Program (SPP) are 
        also experiencing long lines and frustrated passengers. Private 
        security companies are required to follow the same procedures 
        and SAM as airports with Federal TSOs. Airports in the 
        Screening Partnership Program have serious problems. TSA ended 
        the contracts at 4 Montana airports because the screening 
        companies were unable to meet the agency's requirements for 
        security. Multiple security breaches occurred after Orlando 
        Sanford Airport privatized screening. There is a decline in 
        workforce experience when airports privatize security 
        screening. TSOs want to serve the public as Government 
        employees; they do not want their security mission compromised 
        by the for-profit incentives of private contractors. AFGE also 
        questions the provision in Secretary Johnson's 10-point plan 
        that depends on airline and airport authority employees to 
        ``pitch-in'' on ``non-screening'' duties. We are concerned 
        about the definition of ``non-screener duties,'' the rigor of 
        background checks and training received by these employees, and 
        the presence of individuals who are not TSA employees or 
        passengers in the checkpoint area.
    4. Despite the importance of their work, TSOs receive second-class 
        treatment from their employer, the Federal Government.--As the 
        economy improves and working conditions at TSA worsen, 
        increasingly TSOs are voting with their feet and leaving TSA. 
        Many former TSOs now work for other Government agencies. TSOs 
        do not have the same rights and protections as other Federal 
        workers, including those employed by other DHS agencies, 
        because the agency is able to ignore the law. TSA has excused 
        itself from complying with the Federal Labor Standards Act and 
        the Office of Personnel Management guidelines and rules 
        governing leave, including the Family Medical Leave Act. TSOs 
        do not have statutory Title VII protections against 
        discrimination, and are not paid under the General Schedule. 
        Starting wages for a TSO are about $15 per hour, even as we are 
        reminded by recent world events that terrorists remain focused 
        on attacking commercial aviation world-wide.
    The duties of a TSO require adherence to a number of different 
screening procedures that must be performed quickly, with no room for 
error, unpredictable hours due to staffing shortages, and do so while 
treating passengers with friendly respect. AFGE is particularly 
concerned that staffing shortages have placed an unnecessary burden on 
female TSOs. Although over one-half of all passengers are female, women 
comprise less than 40% of the TSO workforce. The disparity in numbers 
has resulted in female TSOs being denied the ability to bid for shift 
or positions due to a shortage of women at the checkpoint. All TSOs 
bear the burden of disciplinary review procedures created by TSA with 
no ability to appeal adverse personnel actions to a neutral third party 
like the Merit Systems Protection Board or a negotiated grievance 
procedure. The denial of fundamental workplace rights has nothing to do 
with security and does not make the country safer.
    From the perspective of TSOs, their job is to screen passengers and 
bags effectively and efficiently. Their first priority is to keep the 
flying public safe, and to do so as proficiently as possible. Here are 
their ideas:
    1. Return the workforce to 2011 levels. The continued practice of 
        starving TSA screening operations of necessary funding must 
        stop immediately. As enacted, the proceeds of the Passenger, or 
        the September 11 Security Fee, only captured 36% of TSA's costs 
        to provide aviation security. In 2014, fee increases were 
        partially diverted to address the deficit and are deposited in 
        the general fund of the Treasury. Despite rising passenger 
        volume, Congress only increased the TSA budget by less than 1 
        percent between fiscal year 2015 and fiscal year 2016. Even 
        with knowledge of the gaps between passenger growth and 
        staffing, the fiscal year 2017 budget request for TSA asked to 
        fund a staffing request for an additional paltry 323 positions. 
        Congress should pass emergency legislation to ensure funding to 
        fully staff TSA checkpoints. TSA should face no obstacle in 
        applying fee proceeds to TSO staffing as necessary. Congress 
        must finally end the arbitrary and severe cap on full-time 
        TSOs. Like other agencies in the Department of Homeland 
        Security, TSA should be able to hire the number of full-time 
        TSOs required to fulfill its mission.
    2. Dedicate the proceeds of the Security Fee to TSA.--Perhaps the 
        most obvious solution to funding problems at TSA is to utilize 
        the security fee for the reason it was intended: To finance the 
        mission of the agency.
    3. Increase efforts to retain the current TSO workforce.--It is 
        well within the authority of both Congress and TSA to address 
        the issues set forth in this testimony. The TSO workforce is 
        not a footnote to the agency's goal of effectively and 
        efficiently screening passengers. The work of TSA falls greatly 
        on the shoulders of the TSO workforce. Their common-sense 
        solutions address both current understaffing and prevent a 
        future reoccurrence. We urge lawmakers to direct Administrator 
        Neffenger to apply title 5 rights protections to the TSO 
        workforce. AFGE strongly supports H.R. 4488, the Rights for 
        Transportation Security Officers Act, introduced by 
        Representatives Bennie Thompson and Nita Lowey. The bill 
        requires TSA to follow the same workplace rules as the majority 
        of agencies in the Federal Government. TSA consistently 
        receives the lowest rating from its employees when surveyed, 
        including the current Best Places to Work in the Federal 
        Government survey, where TSA ranked 313th out of 320 agencies. 
        AFGE believes TSA's low ratings are attributable to TSA's 
        unique ability to choose which rights and protections apply to 
        the workforce.
    In addition, TSA should provide TSOs who have been on the job 2 
        years or longer with an immediate 5% longevity pay increase to 
        finally adjust their wages to match the 5% wage increase paid 
        to employees of less than 2 years in 2015. Protections and 
        rights under title 5 and fair compensation for their work will 
        finally provide the TSO workforce with the respect and 
        stability appropriate to their position in the framework of 
        homeland security with the added benefit of supporting the 
        retention of an experienced TSO workforce.
    4. Private-sector employees are a diversion from the permanent 
        Federal staffing solution required at checkpoint.--AFGE does 
        not support the provision of Secretary Johnson's plan allowing 
        airport and airline employees to be assigned duties around the 
        checkpoint to ``free-up'' TSOs for screening duties. The 
        Aviation and Transportation Security Act, Public Law 107-71 at 
        Section 44901 states:

    ``The Under Secretary of Transportation for Security shall provide 
        for the screening of all passengers and property, including 
        United States mail, cargo, carry-on and checked baggage, and 
        other articles, that will be carried aboard a passenger 
        aircraft operated by an air carrier or foreign air carrier in 
        air transportation or intrastate air transportation. In the 
        case of flights and flight segments originating in the United 
        States, the screening shall take place before boarding and 
        shall be carried out by a Federal Government employee (as 
        defined in section 2105 of title 5, United States Code), except 
        as otherwise provided in section 44919 or 44920 and except for 
        identifying passengers and baggage for screening under the 
        CAPPS and known shipper programs and conducting positive bag-
        match programs.''

    Airline and airport employees have no experience performing these 
        duties and have not received the hours of training TSOs are 
        required to complete. It is not clear that these employees were 
        vetted by their employer to the same extent as the TSO 
        workforce. Instead of diverting resources by inserting 
        employees who do not work for TSA into the framework of 
        aviation security, AFGE calls on Congress to provide the 
        funding to fully staff airport checkpoints.
    Transportation Security Officers do all they can to detect any 
person or anything moving through checkpoints that might cause harm to 
passengers. It should not be so hard for them to simply do their jobs. 
AFGE pledges to work with TSA, Congress, and the public on solutions 
that address the agency's problems in a manner that improves passenger 
experiences and the ability of TSOs to carry out their duties. Thank 
you for the opportunity to appear before you at this hearing, and I 
look forward to responding to any questions you might have regarding my 
testimony.

    Mr. Katko. Thank you, Mr. Cox, for your testimony. We 
appreciate you being here today.
    Before I recognize myself for 5 minutes of questions, I do 
want to note that it is very interesting that the part-time 
employee attrition rate is nearly triple that of full-time 
employees at TSA. That is something I want to talk to you about 
in a few moments' time.
    I now recognize myself for 5 minutes of questions.
    One of the overarching observations from speaking to you 
last week all at the panel, two things: Expansion of TSA is 
critically important, and also it was a revelation to all of us 
that field service directors really have their hands tied to 
some extent with respect to making staff and allocation 
decisions and oftentimes are not interacting in an appropriate 
manner with the airports and airlines in the field.
    So our bill addresses all of those things. But I do want to 
flesh them out a little bit. I will start with the TSA PreCheck 
program.
    Ms. Callahan, you stated that 40 percent now of the 
Syracuse Airport is on PreCheck.
    Ms. Callahan. That is correct.
    Mr. Katko. What type of an impact has that had on the 
airport and the throughput of passengers?
    Ms. Callahan. We are seeing wait times on average of 
anywhere between 12 and 15 minutes. When I flew out this 
morning, I had a first experience at seeing that, and it really 
has helped to balance the distribution of PreCheck and non-
PreCheck employees during those peak periods, which for us is 
really 4:30 until about 7 a.m.
    Mr. Katko. Right.
    Now, for any of you who can answer this question. There are 
discussions at times that PreCheck isn't always open, and I 
have experienced that myself and it is frustrating to me, being 
Chairman of this subcommittee. But is it fair to say that if 
PreCheck were expanded dramatically, like it is intended to be, 
that it would allow those lanes to be open on a more regular 
basis because the staffing would warrant it? Is that correct? 
Anyone want to answer that?
    Ms. Philipovitch. No, I think that the point is good that 
especially when customers enroll in PreCheck. The enrollment 
rates tend to be higher the more frequently the customers 
travel, and they build that expectation of having PreCheck 
available into their schedules in terms of what flights they 
book and when their meetings end and the like. It is a service 
that the TSA is selling, that people are paying for. So people 
are incredibly frustrated, customers, when they come and find 
those lines closed.
    The screening procedures in PreCheck are much faster, so 
the transaction time per customer is lower. Therefore we can 
get many more customers through the checkpoint, both safely, 
securely, and efficiently, the more people are in PreCheck. So 
we are a big fan of expanding it as well.
    Mr. Katko. Okay. Thank you.
    I take it all of you are. Is that right? Yes. You are all 
nodding your head. It seems self-evident.
    Mr. Cox. Mr. Chairman, I think the one issue that we 
constantly find, PreCheck is helping, but as we have continued 
decrease in staffing, that continues to perpetuate the problem. 
No matter whether we have PreCheck or not, the real issue is 
that we have to have adequate staffing in TSA.
    Mr. Katko. It is understood. But it is fair to say, is it 
not, Mr. Cox, that if you had 20 million people enrolled in 
PreCheck Nation-wide, or 30 million people enrolled in PreCheck 
Nation-wide, and you have the throughput for PreCheck 
individuals are double the time it is for others, it would have 
less stress on the system? You have to acknowledge that.
    Mr. Cox. It would definitely have less stress on the 
system. But if we keep losing 5,000 every several years, that 
is going to have stress on the system.
    Mr. Katko. That is something we need to address for sure.
    Now, with respect to the field service directors, it was 
really shocking to me that they weren't interacting with some 
of the airports, especially the major airports, on a regular 
basis with respect to the staffing allocation models.
    So, Ms. Beairsto, could you comment on that for a moment, 
if you would, please?
    Ms. Beairsto. Sure. We have a strong and favorable 
partnership with our local TSA. However, when it comes to 
staffing allocation model, we encourage TSA to provide greater 
transparency so we, airports and our airline partners, can 
better plan and schedule around staffing shortages and the 
like.
    Mr. Katko. All right. I am sorry. I referred to them as 
field service directors, and my able staffer told me: Hey, 
dummy, it is Federal service directors--Federal security 
directors, excuse me.
    But one of the things we propose in the bill is that you 
take the FSDs, if will you, and basically mandate that they 
meet with the airport directors and airlines on a regular basis 
and that they discuss staffing allocation models and then 
certify to us that they are actually doing that. We are asking 
that to be done on both the local level and on the National 
level. We are hoping that is going to have an impact on it.
    Now, Ms. Callahan, I understand from speaking to you 
earlier last week that you do that now on a regular basis. Is 
that right?
    Ms. Callahan. Yes, sir, we do. In fact, we had a meeting 
yesterday with our Federal security director and his assistants 
from Albany all the way to Buffalo, a meeting held in Syracuse. 
Forty of the airports in New York State were at that meeting 
where we had an in-depth, detailed briefing on their plans for 
the summer travel season, how we can work together and 
collaborate to address some of the issues.
    My FSD oversees 14 airports. So to see him on a monthly 
basis is really incredible, that he has the time to do that. 
But he is very responsive and reactive to issues.
    Mr. Katko. That is good. One of the things we want to do in 
this bill is to untie their hands to some extent from an 
administrative standpoint, because I believe that they need to 
have more flexibility with respect to their decisionmaking 
authority on the front lines.
    If you get a call from American Airlines or from Chicago 
and they say, ``Lookit, we are going to get crushed over the 
next 3 days, we just sold a bunch of tickets,'' whatever, let's 
work together, figure out how to do that. They have got to be 
able to have the flexibility to grant more overtime. They have 
got to have the flexibility to be able to bring more people in.
    So that is part of what we are contemplating in this bill, 
and it is based on our discussions with all of you. So I 
appreciate that.
    Now, Mr. Cox, one of the things I have been thinking about, 
when you were talking about some of the staffing issues and the 
attrition rate, is if there is some money that is reallocated, 
if that is the right term, from other parts of TSA to staffing, 
would it make sense to take a lot of these individuals that are 
part-time now and make them full-time and in so doing you 
thereby reduce the attrition rate considerably, for some of 
them at least?
    Mr. Cox. Yes, sir, that would definitely help with that 
situation. Administrator Neffenger spoke with me yesterday and 
said his attrition rate with full-time TSOs was around 7 to 8 
percent, but, again, it is over 20 percent in the part-time.
    People want full-time employment. They will go to other 
Federal jobs or other jobs in the airport seeking full-time 
employment. So moving that money to getting them full time 
would definitely help fix a lot of the problems.
    Mr. Katko. Okay. Of course the added benefit during this 
crisis, if you will, that we are having at airports is that 
moving someone from part-time to full-time doesn't take any 
additional training.
    Mr. Cox. No, sir, that doesn't. They are ready to go. Many 
of them in peak times are already working 40 hours a week or 
possibly more than 40 hours a week. So they are ready to go. 
There is a cap that has been put on the number of full-time 
employees. So if Congress could fix that, that would help with 
a lot of the situation.
    Mr. Katko. All right. Thank you very much, Mr. Cox.
    I have so many more questions, but I can't go over my time 
too much here.
    So I now recognize the Ranking Member, Mr. Payne, for 5 
minutes of questions.
    Mr. Payne. Thank you, Mr. Chair. I ask unanimous consent 
that 2 letters from AFGE to President Obama and Secretary 
Johnson be inserted in the record.
    Mr. Katko. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information was not submitted at the time of publication.
---------------------------------------------------------------------------
    Mr. Payne. Thank you.
    Ms. Beairsto, in response to the issues at your airport and 
others around the Nation, Secretary Johnson and Administrator 
Neffenger announced plans to address the lines, including 
additional resources. Has the administration's response to the 
wait times within your airports been effective and has it had a 
positive effect? To this point, I hear a lot that we have the 
additional resources coming in but have not heard how it has 
impacted your wait times in a positive manner, if it has.
    Ms. Beairsto. Sure. It has. TSA has provided 58 additional 
officers. The shift of moving over 160 part-time officers to 
full times helped TSA address the peak periods both in the a.m. 
shifts and the p.m. shifts. Tripling the amount of overtime 
allows them to open checkpoints early so they are not behind 
the curve. Adding morning shifts for TSA screeners and the 
additional K-9 teams at O'Hare from around the country has 
proven incredibly helpful. The K-9 teams alone are allowing us 
to move roughly 5,000 passengers a day through PreCheck.
    Mr. Payne. Okay. So what would you say the wait times as 
opposed to what they were are now, specifically?
    Ms. Beairsto. Sure. So at Midway Airport the wait times 
with K-9 teams can be 20 to 30 minutes during peak periods. 
Without them, they can reach of 69 to 90 minutes. We are seeing 
a great impact on the K-9s. Thank you for asking.
    Mr. Payne. Yeah. I have Newark International in my 
district, and we really have had the same experiences you have 
been having in Chicago based on the hub that we are. Also with 
the Port Authority having 3 airports under its purview has been 
a major hang-up with the wait times. We have had the resources 
moved in Newark as they have in Chicago and it has dramatically 
impacted the ability to move passengers in a timely manner.
    Ms. Allin, within your testimony you note that the BDOs 
could be useful in other positions within the screening model. 
Could you expound for the committee on your thoughts on 
achieving efficiencies through using the Behavior Detection 
Officers?
    Ms. Allin. Thank you, Representative Payne.
    Yes, sir, the Behavioral Detection Officers are trained in 
perceiving people who are going to do something that is not 
correct, or it may be illegal, may be trying to smuggle 
something, potentially terrorist ties. By having them as the 
ticket document checkers, they have a personal connection to 
every single passenger that goes through and they can screen 
each individual. As opposed to standing to the side or the back 
of the line where they are observing behavior, they can better 
detect people who may need additional screening or discussion.
    Mr. Payne. Okay. Thank you.
    Ms. Allin. This is a model that is used overseas that has 
been quite effective there.
    Mr. Payne. Okay. My time is winding down, but I just wanted 
to say to Mr. Cox, all throughout this discussion over the past 
several weeks that I have kept the TSOs in mind and have made 
sure that my colleagues have some idea of what they go through 
and the strain that they are under based on these long wait 
times as well. They are our last line of defense, and we need 
to make sure that they have the resources that they need in 
order to do the job well. We can't afford them not to. They 
have to be right 100 percent of the time.
    So I just wanted to put that on the record. I yield back.
    Mr. Katko. Thank you, Mr. Payne.
    The Chair will recognize other Members of the subcommittee, 
and then Ms. McSally, for 5 minutes of questions that they may 
wish to ask the witnesses.
    In accordance with our committee rules and practice, I plan 
to recognize Members who are present at the start of the 
hearing by seniority on the subcommittee and then others, such 
as Ms. McSally, who are visiting the committee this morning. 
Those coming in later will be recognized in order of their 
arrival.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes of questions.
    Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank all of you for being here. This is obviously a very 
important subject to us. I am glad to see you all because I 
have some important questions I want to ask you.
    I have the honor and privilege of representing the First 
Congressional District of Georgia. That includes the entire 
coast of Georgia. Georgia is unique in the sense that we have a 
lot of small airports, a lot of rural areas. We also, as you 
know, have Hartsfield-Jackson Airport, which is the busiest 
airport in the country, in the world. That presents a dilemma. 
But I want to ask you some questions about that, and I am very 
interested to know your responses to this.
    What we have been hearing and what I have been hearing from 
a lot of the airport officials is that there exists somewhat of 
a disconnect between the local TSA officials, the airlines, the 
airport officials, and then upper management, that management 
in TSA up here in Washington, DC, if you will. Have any of you 
experienced that? Can you comment on that? Ms. Allin or whoever 
wants to comment. Just very quickly, because I have a bunch 
here.
    Ms. Callahan. Yes, Mr. Carter. I think it is really each 
airport is different. There is a saying in our industry: You 
have seen one airport, you have seen one airport. So the 
relationships that exist are really local and dependent on the 
people within the organizations at those airports. I imagine in 
Atlanta it is much more difficult than in it is Syracuse, New 
York, where we have access to our FSDs and AFSDs and the 
airlines on a regular day-to-day basis. That is what I can 
offer.
    Mr. Carter. Okay.
    Anyone else?
    Ms. Allin. Representative Carter, Tucson previously had an 
FSD until 2 years ago, then we became a spoke airport. We have 
an excellent relationship with our local screening managers and 
our local personnel. They now have many layers to go through. 
Models and requirements are dictated, and I can't personally 
say from where, but certainly above their ability to be able to 
react quickly to issues on the ground. That is what we 
experienced during our peak period in February and March. They 
were only allowed to open the PreCheck lane after they had 
opened a second standard lane because of staffing. Then they 
could open a PreCheck lane.
    When they opened the PreCheck lane the lines were cut in 
half and they were not the full length of our terminal front. 
So having the ability to do that would be helpful.
    Mr. Carter. Okay. Great.
    Let me ask you, has anyone had any experience with private 
security? Any of you who have had that experience?
    Ms. Philipovitch. In a few airports that we serve have 
private security.
    Mr. Carter. I am sorry. Say again?
    Ms. Philipovitch. Sorry. Oh, thank you.
    A few of the airports that American serves have private 
security.
    Mr. Carter. Can you give me your impression? I mean, what 
have been the results?
    Ms. Philipovitch. I will just use San Francisco as an 
example, because that is probably the one I am most familiar 
with. Because the privatized airports, the way the privatized 
model is today, follows the same procedures and staffing 
allocation models as other airports.
    Mr. Carter. Okay, I hope that my colleagues heard that. 
They have to follow the same rules and regulations.
    Ms. Philipovitch. Right.
    Mr. Carter. The training is the same. Everything is the 
same. TSA oversees it, correct, oversees it?
    Ms. Philipovitch. Correct. That is my understanding.
    Mr. Carter. All right. I am sorry. Continue.
    Ms. Philipovitch. So we really see that as long as the 
operation is properly resourced we are able to have both 
effective and efficient screening in either model. Really the 
key is making sure that the resource allocation meets the peak 
needs of the operation.
    Mr. Carter. Okay.
    The Screening Partnership Program. Mr. Cox, I am going to 
ask you directly, can you give me an idea of why, it appears to 
me and from what I have heard, that they do a better job and 
that they save money on top of that? You had any experience 
with this?
    Mr. Cox. Sir, we believe that the TSOs that are employed by 
the Federal Government, No. 1, it is a professionalized 
workforce, they do a great job, they have been trained to do 
that. I think the record speaks very clearly for themselves. 
Since 9/11, we have not had acts of terrorism in this country. 
We had a privatized workforce on 9/11 and we saw what happened, 
this country was brought to its knees. The Government has been 
taking care of that, been doing that. Part of our real problem 
right now is a lack of staffing, not enough staff to do the 
work properly.
    Mr. Carter. I understand and I appreciate what you are 
saying, but at the same time, I am convinced that the private 
industry can do this just as well with oversight with TSA and 
save money and improve customer service and decrease the long 
lines that we are experiencing at our airports. They go through 
the same training. The TSA still has the oversight, the 
responsibility.
    I think it is unfair to compare what happened on 9/11 
between privatization and being run by the public. I mean, that 
took us all. We were all asleep at the wheel then, you have to 
admit that.
    Mr. Cox. I agree. I was watching Fox News last Sunday and 
one of the commentators was at the San Francisco Airport, was 
complaining about the long lines, the rudeness of the officers, 
and the various incidents that were going on and said, this is 
a classic example of why it needs to be privatized. I busted 
out laughing because it is a privatized airport and all the 
problems that she was referring to were at a privatized 
airport. She wasn't in Atlanta or Miami, one of those that was 
not privatized, she was in San Francisco complaining, saying it 
was a classic example of why it should be privatized.
    Mr. Carter. Well, what I would like to see are some 
comparisons. I mean, this is something that is very important 
and if we can improve it--because you mentioned the 
disconnect--or I brought up the disconnect and you commented on 
the disconnect between Washington and the local officials. This 
is something that we have got to work on. This is what happens 
when the bureaucracy gets out of control. That is I think we 
are headed with and we are at right now with the TSA, is the 
bureaucracy out of control. We need to get it under control.
    Mr. Chairman, I know I have gone past my time, but this is 
just a very important subject to me.
    So I appreciate your input on that.
    Mr. Cox, what you are telling me, I am having different 
views expressed to me by other people, so I am going to 
continue to search on this and continue to try to see what we 
can come up with.
    Mr. Chairman, I yield back. Thank you.
    Mr. Katko. Thank you, Mr. Carter.
    I ask unanimous consent that the gentlelady from Texas, Ms. 
Jackson Lee, be allowed to sit on the dais and participate in 
this hearing.
    Without objection, so ordered.
    Ms. Jackson Lee. Let me express my appreciation to the 
Chairman and the Ranking Member for your courtesies. This is a 
committee that I have a great affection for because I indicated 
before that the TSOs are the first line of defense, if you 
will, for the neighborhood, for the Nation's aviation security. 
So let me thank all of you for your presence here.
    I have some direct questions and then I want to raise a 
series of questions with Mr. Cox. Thank you very much for 
representing very fine professional staff, which I want to be 
more professional, less part-time, more recruitment, increased 
salaries, and the numbers that you would like to have.
    So I would ask the representative from Chicago, Illinois, 
the admiral was here just yesterday, and I understand that the 
wait has gone to 15 minutes. I would like to see what--you are 
obviously here today, Thursday--I would like to hear your 
assessment. Have the lines improved, the time and the waits 
improved?
    Ms. Beairsto. Oh, considerably, ma'am. We have seen wait 
times less than 15 minutes.
    Ms. Jackson Lee. So there has been a fix, if you will, and 
obviously we have to see that it is a consistent fix.
    Ms. Beairsto. A permanent fix.
    Ms. Jackson Lee. That is even better, to hear that it is a 
permanent fix. He has added more, as I understand, there is a 
task force and he has added more employees. Is that correct?
    Ms. Beairsto. May I correct? It is temporary right now. We 
need a permanent fix.
    Ms. Jackson Lee. So you were saying we need a permanent 
fix?
    Ms. Beairsto. Right.
    Ms. Jackson Lee. Well, that will come. The temporary is 
that you added more personnel. Is that correct?
    Ms. Beairsto. Yes, the extended overtime allowed for 
increased shifts in peak periods.
    Ms. Jackson Lee. Are you aware that we expect about 700 to 
be in by July, and so you would probably get some additional 
TSOs?
    Ms. Beairsto. I am aware. Thank you.
    Ms. Jackson Lee. That would probably help their 
circumstances.
    Is there a problem with the baggage check down--there is a 
screening and then there is a baggage check. Is there a problem 
on the baggage check area as well?
    Ms. Beairsto. It has not surfaced at our level. We can 
certainly find out additional information and follow up.
    Ms. Jackson Lee. Thank you. But the problem has been at 
least relieved for a moment and we expect to continue to work 
with you for that.
    Ms. Beairsto. Midway Airport is still waiting for 
additional resources.
    Ms. Jackson Lee. Additional resources.
    Would you say that your TSOs are professional, your 
management level?
    Ms. Beairsto. Yes, absolutely.
    Ms. Jackson Lee. They were attempting to correct the 
problem?
    Ms. Beairsto. Yes, absolutely.
    Ms. Jackson Lee. All right. Thank you.
    I see that there are other airports. There is an airline 
representative here, I think, from American Airlines. Have you 
been able to work by way of getting your concerns to TSA, 
should we facilitate a better communication protocol when there 
are concerns?
    Ms. Philipovitch. You know, we have been working very 
collaboratively and effectively with the TSA, both at the 
headquarters level with Admiral Neffenger, as well as at the 
local level. So the airlines are taking action in collaboration 
with the TSA and also promoting many of the actions that the 
TSA is suggesting and already taking and also the actions that 
are contained in Chairman Katko's proposed legislation, which 
we are in favor of as well.
    Ms. Jackson Lee. Which means that you would be willing to 
pay for overtime for TSOs?
    Ms. Philipovitch. You know, right now we really want to get 
more transparency into the staffing model and understand how 
resources are being deployed. We need to make sure that we have 
an analytical model that puts resources where they need to be 
to meet the peak demands of our customers.
    Ms. Jackson Lee. I agree with you. More flexibility for the 
FSDs, would that be helpful?
    Ms. Philipovitch. In cooperation with their airline 
partners, yes.
    Ms. Jackson Lee. Would you join with us, because I heard 
the point being made that we need nor data regarding the 
baggage fees? So I think there should be an assessment and a 
study coming from both ends, the airlines and TSA, on the 
baggage fees as to whether or not they do increase the number 
of bags coming through by hand-carry. Would you work with us on 
that?
    Ms. Philipovitch. May I comment on the checked baggage in 
general?
    Ms. Jackson Lee. Uh-huh.
    Ms. Philipovitch. The airlines have been charging checked 
baggage fees since 2008, and the line waits we are experiencing 
with TSA this year are unprecedented. So I think it would be 
inaccurate to say that bag fees are leading to the current line 
waits that we are experiencing.
    You mentioned the baggage----
    Ms. Jackson Lee. Can I interject for a moment? We note that 
we have had a sizable increase in passenger travel between 
2008--already between 2011 and 2016. My only question is, we 
all have our different perspectives. I am not offering any 
perspective. I am just offering, would you participate and 
collaborate on getting the data that we need to understand the 
question better?
    Ms. Philipovitch. We are interested in collaborating to 
solve the problem.
    I do want to note that baggage screening, as you noted, is 
also a core function of TSA. Even though we had heard from my 
colleague from Chicago that we haven't had severe issues there, 
some of our other airports have experienced significant 
backlogs, in some cases even worse than what we are 
experiencing at the checkpoints----
    Ms. Jackson Lee. What we want to do is fix the problem.
    Ms. Philipovitch [continuing]. Like in Miami and Los 
Angeles.
    Ms. Jackson Lee. Right. We want to fix the problem. I know 
that you have hubs like Miami. So we want to fix the problem.
    Let me quickly move to Mr. Cox, if I might.
    Mr. Cox, I have traveled to many of your airports. I take 
the opportunity to speak to TSOs everywhere I go, including 
supervisors and managers. I will say that I ran into one 
individual, his name is Vincent, who is a World War II veteran, 
came, and was in a wheelchair, was dropped off by his family, 
he was traveling by himself. He said, ``I don't want anybody 
else. I want a TSO, TSO, TSO.'' That means to come out to the 
curb.
    So a TSO went out to the curb and took him with the 
wheelchair all the way through security, et cetera, et cetera, 
getting to the gate, getting down to the door of the plane. He 
noted that this proud World War II veteran who had been dropped 
off by his family members, I am sure they meant well, he could 
not walk. Your TSO agent lifted him up and took him and took 
him and put him on the plane.
    I think these are the stories that need to be told. If the 
Chairman would yield me just a moment here.
    Mr. Katko. Ms. Jackson Lee, just to let you know, we are 
kind-of crunched for time and Ms. McSally needs to go too.
    Ms. Jackson Lee. May just get this last question in?
    Mr. Katko. Votes are coming up, so please hurry.
    Ms. Jackson Lee. Yes, thank you.
    I support a professional staff, not privatization. Would 
you respond to that quickly, please?
    Mr. Cox. We clearly believe that a professional staff that 
are Government employees, that this is an inherently 
Governmental function to keep the American public safe. These 
people are well-trained, they do a great job, they love their 
jobs, they just need to have adequate staffing to be able to do 
their jobs and to do them properly.
    I think if the committee really wants to get legislation 
that tries to get the input and the collaboration, that it 
would be important that AFGE and the employees that it 
represents be included in the legislation as one of the 
partners trying to resolve the problem.
    Ms. Jackson Lee. Thank you.
    Thank you very much, Mr. Chairman. Thank you so very much. 
More funding is important.
    I yield back, Mr. Chairman, Mr. Ranking Member. Thank you.
    Mr. Katko. Thank you, Ms. Jackson Lee.
    The Chair now recognizes the patient Ms. McSally from 
Arizona.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    In the roundtable last week and in your testimony today we 
heard one of the main issues is flexibility for the FSDs, that 
they can make decisions on the ground, but not just for the 
FSDs, for the supervisors in spoke airports like Tucson.
    Admiral Neffenger was asked this question yesterday, and he 
said he has given the flexibility to FSDs. I felt like I was 
listening to parallel universes that were in complete 
contradiction of each other. He believed that they already have 
that flexibility. It is unbelievable to me that it would take 
an act of Congress to actually direct them to provide 
flexibility. This is just leadership 101.
    But he sincerely believes he has given that authority. I 
specifically asked him yesterday about this and the spoke 
airports like Tucson, and he said they have all the authority 
they need. Maybe they are not just getting the message. He just 
recently removed Kelly Hoggan, who potentially is the barrier 
to this direction being communicated down to all of you.
    But I want to say, we need your immediate feedback. He gave 
his promise yesterday that he was going to follow up on this 
and made sure they understood his guidance that they had that 
flexibility.
    Ms. Allin, can you share? You have given some examples. If 
we had the flexibility with our senior TSA rep on the ground in 
the last few months, what other instances? Were their hands 
tied? What would have changed? What have you been able to do 
there in order to alleviate the problems that we are having?
    Ms. Allin. Thank you, Representative McSally.
    When we were experiencing the extreme lines, the challenge 
that our local representative with TSA had, which is not an 
FSD, as we are a spoke, as you noted, was the fact that there 
are specific models. A certain throughput of passengers per 
hour have to go through the lane before the second lane can be 
opened up, and that with one standard lane, then a second 
standard lane had to be opened before PreCheck, where PreCheck 
is the quick resolution because the lane was cut in half when 
the PreCheck lane was opened.
    Ms. McSally. That direction you think came from the 
District of Columbia or Phoenix? Do you know?
    Ms. Allin. Phoenix came down when the passengers were 
calling the media from the lines and the media began showing 
up. It all exploded during the week and that is when things 
changed.
    Ms. McSally. Right. Is that still the case? Do they have to 
do the second line before PreCheck?
    Ms. Allin. With staffing, yes, ma'am. They are limited on 
staffing and therefore can't open the PreCheck, because it 
requires more people--and I am sorry, I can't tell you exactly 
how many more--than the standard lane.
    Ms. McSally. Okay. Great. Are there any other situations 
where you saw their hands were tied, that they could have maybe 
moved, say, BDOs to be checking IDs or something else had they 
been given more flexibility locally?
    Ms. Allin. Yes, ma'am. We have been asking for BDOs to be 
document checkers since the problems first started with the 
holidays prior to our season coming. Our FSD in Phoenix 
refused, saying that it was important for them to be observing 
the line, the people in line, as opposed to being able to be 
document checkers. I think all that is changed by the admiral 
and we appreciate that greatly.
    Ms. McSally. Okay. Great. Thanks.
    Ms. Beairsto, you said you appreciated the assistance. 
There was big media attention to the problems at Chicago and 
then additional agents and K-9 teams came to the rescue. 
However, they were pulled from somewhere else.
    What we heard from the roundtable last week is the feeling 
that this sort of squeaky wheel, let's move assets around to 
whoever is on TV today, allows, I think one of the airport 
managers said, something along the lines of we all get a turn 
to be the worst, is that kind of model, which means that you 
are just going to create a crisis somewhere else.
    So I am concerned about that, that this is more like a 
whack-a-mole scenario as opposed to a strategic model that is 
going to address all these issues and we are not going to be 
robbing from medium and small airports in order to address the 
bigger airports that end up on TV.
    Can anyone sort-of provide some perspectives on that and 
concerns that we shouldn't be reactive, we should be much more 
strategic on this?
    Ms. Beairsto. If I can give an example, ma'am. The 
passenger screening K-9s, for example, which we borrow and have 
been reallocated from other airports, those kinds of resources 
really need to be allocated based on airport passenger 
throughput and the security risk, right? So those are the kinds 
of things that TSA should consider.
    Ms. McSally. Great. Thank you.
    Mr. Cox, yesterday I asked Admiral Neffenger about 
something that was really troubling that I discovered this 
week, which is we have instances of at least 250 through April 
that have been reported where TSA agents have been pulled away 
from their primary mission, which is the security of air travel 
and the efficiency and safety of passengers and air travel, to 
support things like Presidential campaign rallies. We have 
heard reports of other events, concerts, and sporting events. 
This is nowhere in their core competency.
    So could you please comment on your perspectives on 
whether, when somebody signs up to be a TSA agent and a TSO, 
whether they expected to be at a campaign rally or whether they 
expected to be doing their core mission and how you all feel 
about that?
    Mr. Cox. We expected them to do their core mission, to do 
their core work. As with any situation, you do understand the 
workers don't get to drive the train, they just show up and do 
what the bossman tells them to do.
    I know our TSOs, they want to be at the airport doing their 
mission and taking care of it. It upsets them when those lines 
are long and passengers are waiting because passengers get more 
frustrated with them.
    I would say, if you really want to resolve a lot of these 
problems, you can talk to FSDs, you can talk to the 
administrator, but Congress probably needs to mandate that 
there be some work groups made up of TSOs themselves. The 
people who actually do the work can tell you how to improve the 
processes. I know American Airlines does that all the time. I 
know all these airports do that.
    We need to be talking to the front-line employees and they 
could give a lot of solutions. They can't necessarily give more 
resources or more people, but I am sure they know how to 
improve the work processes.
    Ms. McSally. Great. Thank you. I agree with you. Look, we 
need to make sure that large-scale events have safety and 
security, but there are other ways to do that than to be 
pulling agents, that its core responsibility is the safety of 
air travel, in order to do that. So I will be following up on 
that.
    I appreciate the leverage, Mr. Chairman.
    Mr. Katko. Thank you, Ms. McSally.
    I would like to thank the witnesses for their thoughtful 
testimony. Members of the committee may have some additional 
questions for all of you, and we will be asking you to respond 
to those in writing. Pursuant to committee Rule VII(E), the 
hearing record will be held open for 10 days.
    Before we close, a couple of observations. First of all, if 
we had more time we could go on on this all day long. But what 
is the beauty of this hearing was that we had the input of all 
of the stakeholders at the table and those sitting in the 
audience last week, which helped us become very prepared for 
this testimony.
    I think a lot of times people look at Congress and say, 
Congress is broken, nothing gets done, they are not listening 
to us. I think what has transpired over last week is that we 
looked at a crisis, we got the stakeholders in here, we 
listened to you, we crafted a bill responding to what you have 
to say, and it is going to have immediate an impact if we can 
get it passed. I am excited about that.
    The frustration is that we are moving these things and we 
are getting this stuff done. So I ask all of you to be 
advocates with the Senate to tell the Senate to do their job as 
well, because we don't want to hear any more of these wait time 
issues.
    When we can act like this in a collaborative manner, that 
is when Congress really works. We have to make sure that 
process comes to a positive conclusion.
    So thank you all for coming here. I know it is an early 
flight for some of you. If it is any consolation, we were 
working until about 12:30 last night and I was up at 5 this 
morning. So we have all had busy days.
    So thank you all very much.
    Mr. Payne. Mr. Chairman.
    Mr. Katko. Sure.
    Mr. Payne. Just an observation before we close.
    Ms. McSally, you should have not left Homeland. I see you 
more now.
    Ms. McSally. I am on Homeland. I just gave up the Chair of 
the other subcommittee to move over to another subcommittee.
    Mr. Payne. Well, we miss you there.
    Ms. McSally. I am here, baby.
    Mr. Payne. All right.
    Mr. Katko. The committee stands adjourned. Thank you all so 
very much.
    [Whereupon, at 10:28 a.m., the subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
